OFFICE OF JUSTICE PROGRAMS’
     MANAGEMENT OF ITS
OFFENDER REENTRY INITIATIVES

      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 10-34
              July 2010
                   OFFICE OF JUSTICE PROGRAMS’
                       MANAGEMENT OF ITS
                  OFFENDER REENTRY INITIATIVES

                           EXECUTIVE SUMMARY


       State and local agencies, law enforcement, and community groups
face significant challenges in integrating released inmates back into society
and preventing recidivism. Over 650,000 individuals are released from
federal and state prisons annually and a greater number reenter
communities from local jails. According to the Office of Justice Programs
(OJP), over 50 percent of those released from prison will be in some form of
legal trouble within 3 years. 1

       OJP has been making a concerted effort to attempt to break the cycle
of reincarceration and to successfully reintegrate offenders into their
communities. In particular, since fiscal year (FY) 2002 OJP has implemented
three offender reentry grant programs to help state, local, and community
organizations provide assistance to released inmates when they transition
from incarceration to life outside prison. The three grant programs are the
Serious and Violent Offender Reentry Initiative (SVORI), the Prisoner
Reentry Initiative (PRI), and the Second Chance Act Prisoner Reentry
Initiative (SCA). The three programs share a common goal: to reduce the
recidivism of offenders released from prison into communities nationwide.

OIG Audit Approach

      The objective of this audit was to examine OJP’s design and
management of its three prisoner reentry grant programs. The scope of our
audit covered the development of the SVORI grant program in FY 2002 and
also covered subsequent OJP reentry grant programs through January 2010.

       We performed audit work at OJP headquarters, including at the offices
of the Bureau of Justice Assistance (BJA), Office of Juvenile Justice and
Delinquency Prevention (OJJDP), and the National Institute of Justice (NIJ).
In addition, we interviewed officials at the Office of Community Oriented
Policing Services (COPS) and the Department of Labor (DOL) to assess
federal reentry efforts. We reviewed laws, regulations, and other guidance

      1
       Office of Justice Programs, “Reentry,” http://www.reentry.gov (accessed
December 9, 2009).


                                         -i-
regarding OJP’s reentry program grants funding, design, management,
administration, award activities, policies, and procedures. In addition, we
reviewed documentation related to the reentry grant programs, including
program solicitations, grant award documentation, and monitoring
documentation relating to grants awarded between FYs 2002 through 2009.

      We also conducted a case file review to assess the extent of OJP’s
monitoring efforts. In addition, we reviewed the administration of the
reentry grant awards by a sample of grantees. Overall, we reviewed 10
SVORI grants, 24 SVORI grant files, 10 PRI grants, and 23 PRI grant files.
Appendix I contains a more detailed description of our audit objectives,
scope, and methodology.

      Because the initial SCA grants were awarded in September 2009, we
could not evaluate the monitoring and effectiveness of the SCA grant
program. Our discussion related to the SCA grant program is limited to the
adequacy of the performance measures designed to monitor the program’s
progress.

Results in Brief

      OJP did not establish an effective system for monitoring the SVORI and
PRI grantees to assess whether they were meeting program goals. Our
review of OJP’s official SVORI grant files identified little to no documentation
of grant monitoring activities. Monitoring activities are crucial in identifying
grantee progress toward achieving program goals. While we noted an
increase in documented grant monitoring activities for the PRI grant
program, we found a reduced quality in the desk reviews prepared for the
PRI grant program.

       Our audit also identified significant design flaws in the initial
implementation of OJP’s SVORI and PRI reentry grant programs. We did not
find design flaws with OJP’s SCA reentry grant programs. We found that OJP
did not adequately define key terms essential for determining whether
program goals were met, did not require grantees to identify baseline
recidivism rates needed to calculate changes in recidivism, and did not
analyze performance measurement data. As a result of these design flaws,
neither OJP nor the OIG could definitively determine the effectiveness of
OJP’s grant programs in reducing recidivism. Additionally, an independent
national evaluation of the SVORI grant program’s effectiveness concluded
that the program had no significant impact on participant recidivism. We
believe that OJP should ensure that its reentry grant programs are designed
to allow it to determine whether the goal of reducing recidivism is achieved.


                                     - ii -
     In our report, we make 11 recommendations to assist OJP in designing
and managing current and future reentry grant programs.

Background

      OJP awards grants to state and local organizations to develop or
strengthen offender reentry grant programs. Between FYs 2002 and 2004
OJP awarded $116.8 million for its SVORI grant program to individual
grantees in all 50 states. OJP also awarded nearly $12 million for a
nationwide evaluation of the SVORI grant program to determine the
program’s effectiveness in reducing offender recidivism.

       Between FYs 2006 and 2008, OJP awarded individual grants in 35
different states and the District of Columbia totaling almost $34 million for
its PRI grant program. In FY 2009 OJP awarded individual grants totaling
$11.4 million for its SCA grant program. In total, from FY 2002 through
FY 2009, OJP awarded $173.9 million and 154 grants through its offender
reentry grant programs.

     OJP received $37 million for its FY 2010 SCA demonstration grant
program. As of April 2010, none of this funding was awarded.

Administration and Management of OJP’s Offender Reentry
Programs

      We reviewed OJP’s administration and management of the SVORI and
PRI grant programs and found several weaknesses. Specifically, in our
audits of 10 SVORI grants totaling $17.9 million, we found little
documentation of grantee monitoring and we questioned about $5.2 million
in grant expenditures. Six of the 10 SVORI grantees either failed to
accomplish stated grant goals and objectives or their success in achieving
those goals was questionable.

       Our review of 23 PRI grants found that OJP did a better job of
monitoring these grants with an increased number of desk reviews, on-site
visits, and increased compliance with financial and programmatic reporting
requirements. OJP implemented a policy requiring annual desk reviews in
April 2008. However, we found a decrease in the proper preparation and
completion of the PRI desk reviews. A desk review or desk monitoring
consists of OJP reviewing grant files at OJP to ensure they are current,
accurate, and complete. While an increase in the frequency of OJP’s
monitoring efforts is encouraging, we believe that OJP should improve the
quality of its monitoring to ensure grantees are making progress in
accomplishing programmatic goals.

                                     - iii -
Design of OJP’s Offender Reentry Grant Programs

       Appropriate design of grant programs includes decisions on what data
will be collected and who will collect and analyze the data to determine
program effectiveness. We reviewed the design of OJP’s three offender
reentry grant programs and found initial design flaws that we believe
prevented an adequate determination of the effectiveness of the SVORI and
PRI grant programs. The SCA grant program had addressed or was in the
process of addressing the design flaws identified in the SVORI and PRI grant
programs. The following sections describe the design flaws and their impact
on an evaluation of program effectiveness.

Inability to Adequately Measure Recidivism

       We identified deficiencies in the design of the SVORI and PRI programs
that included: (1) an inadequate or inconsistent definition of recidivism;
(2) no requirement for reentry grantees to establish a baseline recidivism
rate against which later recidivism rates could be compared; and (3) a delay
in establishing performance measures and the absence of data analysis.

       The SVORI solicitations issued between FYs 2002 and 2004 lacked a
sufficient measurable definition of recidivism. For example, SVORI’s FY 2002
solicitation referred to recidivism as the commission of new crimes by
offenders after their release from prison. However, this definition did not
specify a timeframe after release in which to track a program participant’s
new offense. With no timeframe specified, a comparison of recidivism rates
cannot be made.

       OJP also did not include a definition of recidivism in three PRI grant
program solicitations for FYs 2006 through 2008. However, in January 2009
BJA disseminated revised program requirements to its PRI grantees that
included a measurable definition of recidivism “. . . as a return to prison with
a new conviction or supervision within 12 months of release.” Similarly, in
the FY 2009 and FY 2010 SCA reentry grant program solicitations, OJP
included a measurable definition of recidivism as a return to a detention or
incarceration facility “. . . with either a new conviction or as the result of a
violation of the terms of supervision within 12 months of initial release.”

      Further, we found that OJP did not require its SVORI, PRI, and SCA
grantees to submit baseline recidivism rates. An accurate assessment of
reductions in recidivism cannot be made without a baseline recidivism rate.

     When we asked why grantees in each of the three reentry grant
programs were not required to identify a baseline recidivism rate, the Acting

                                     - iv -
Administrator of OJJDP stated that he did not know. The Acting Director of
BJA stated that he did not believe OJP should request grantee baseline
recidivism rates because the target population and geographic location of
grant programs may change after a grant is awarded but prior to the
implementation of the grant program.

       However, we believe that while the target population and geographic
location of a grant program may undergo changes after a grant has been
awarded, OJP should still require grantees to submit baseline recidivism
rates once the target populations and geographic areas for the grants have
been finalized. Without this information, it is impossible to determine
changes in the recidivism rates of participants. We recommend that OJP
require baseline recidivism rates from its grantees so that historical and
current recidivism rates can be compared to assess the grant programs’
effects on recidivism.

Performance Measures

       OJP did not develop performance measures in the first 2 years of the
SVORI grant program, and OJP officials could not provide us with an
explanation for why performance measurements were not developed during
this time period. In FY 2004, however, OJP developed 11 performance
measures for which SVORI grantees were required to provide data.

      Yet, after establishing the SVORI program performance
measurements, BJA and OJJDP program managers did not review the data
for accuracy or use it to assess whether the grantees were meeting their
performance goals. OJP officials stated that its Grants Management System
was not an adequate performance measurement collection system because it
did not perform any type of data analysis and grantees were allowed to
submit data that did not address the required performance measures. Also,
OJP officials told us that a process for assessing SVORI grantee performance
measurement data was never developed.

      For the PRI reentry grant program, we found that OJP developed
performance measures that were timely provided to grantees in FYs 2006
through 2008. However, as with SVORI, OJP did not analyze the
performance measurement data it received to determine whether or not
program goals were achieved.

      According to OJP officials, a new analytical tool, the Performance
Measurement Tool, will be used to collect program data for the SCA reentry
grant program. OJP officials stated it will contain automatic controls to
ensure grantees provide the appropriate type of information for each

                                    -v-
performance measurement, such as whether the information should be
submitted in a numeric or narrative form. In addition, the Performance
Measurement Tool will allow OJP to produce real-time reports and more
efficiently analyze the data collected.

Target Population

       During our review we found that OJP did not provide a clear definition
of the target population for the grant programs, or who should receive grant
program services. Each individual grantee decided what crimes were serious
and violent leading to inconsistent offender participation among different
SVORI grantees. This made grant program comparison difficult because
different types of participants have varying rates of recidivism. For OJP’s
PRI reentry grant program, each of the 3 fiscal years had different target
population definitions.

       For the SCA reentry grant program, we noted that OJP is allowing each
grantee to determine its own target population. OJP’s decision to allow
grantees the flexibility of determining their own target population is
legislatively consistent. However, we recommend that OJP require the
grantee definition to be clearly stated and communicated to OJP.

Effectiveness of OJP’s Reentry Grant Programs

      One potential measure of the effectiveness of reentry programs is its
impact on the rate of recidivism. 2 However, as noted above, we could not
determine the impact of OJP’s grant programs on the rate of recidivism due
to program design flaws.

      OJP’s $12 million independent national evaluation of the SVORI grant
program found that the program had no significant impact on participant
recidivism. OIG audits and reviews also identified several grants that were
unsuccessful because of failure to meet stated goals and objectives, and for
the majority of grants, we could not verify success because of a lack of
adequate support related to performance measures.

Study of Effectiveness

      We reviewed the national evaluation that NIJ commissioned through
$12 million in grants to RTI International and the Urban Institute. This
evaluation found that although SVORI program participation increased the

       2
          A successful reentry program should either reduce the rate of recidivism or, if
recidivism is going up for other reasons, slow the increase in the rate of recidivism.

                                            - vi -
likelihood that participants would receive a wide range of services, it did not
have a significant impact on recidivism.

Offender Reentry Grant Reviews

      We selected a judgmental sample of 10 SVORI grants and 10 PRI
grants to review and assess the effectiveness of individual reentry programs.
We found grantees generally established reentry programs and provided
services to program participants. However, we found that most of the
sampled SVORI grantees did not maintain adequate documentation to
support performance measurement data, thereby making any evaluation of
recidivism questionable.

       We found that PRI grantees established reentry programs in which
participants received services. Unlike the SVORI grantees, we found that
some sample PRI grantees did maintain support for their performance
measurement data.

Offender Reentry Program Evaluations

       Four of the 10 sampled SVORI grantees had local evaluations
conducted of their SVORI reentry program which contained information on
program recidivism. We reviewed these evaluations which were typically
conducted by the state government or a university. The results of the four
local effectiveness evaluations were inconclusive.

Conclusion and Recommendations

       We found that grantee administration of reentry grants improved as
the OJP reentry programs evolved. In the PRI grant program, OJP improved
its collection and retention of administrative grant documentation. OJP also
implemented a policy to require annual desk reviews. We found an
increased frequency of grant monitoring, but also an increased likelihood of
improper review and documentation of desk reviews. We noted that PRI
grantees submitted to OJP required performance measurement data;
however, OJP program managers failed to adequately review them.

      We also identified deficiencies in OJP’s design of its offender reentry
grant programs. Specifically, we found that OJP was unable to adequately
measure recidivism because OJP: (1) did not clearly define, document, and
communicate key programmatic terms for the SVORI and PRI grant
programs; (2) did not request baseline recidivism data from grantees at the
beginning of all three offender reentry programs; and (3) did not develop
and utilize a process for assessing performance measurement data collected

                                     - vii -
from its SVORI and PRI grantees. These design deficiencies hindered OJP’s
ability to evaluate whether its offender reentry programs reduced recidivism.

      In this report, we make a total of 11 recommendations to OJP,
including that it:

     •   require that reentry grantees monitor grant performance to ensure
         they achieve program goals and objectives;

     •   develop a consistent definition of recidivism and ensure it is
         disseminated to all recipients of reentry grants;

     •   require reentry grantees to establish baseline recidivism rates to
         facilitate comparison of recidivism rates between participants of
         reentry programs and non-participants;

     •   review past offender reentry programs to identify best practices,
         lessons learned, and problems to be avoided when developing and
         implementing new reentry programs; and

     •   develop a process for assessing and analyzing performance
         measurement data from grantees to determine if program goals are
         being met, including whether recidivism has decreased.




                                    - viii -
                              TABLE OF CONTENTS

                                                                                        Page

INTRODUCTION .............................................................................. 1
     OJP’s Reentry Initiatives ............................................................ 1
     Prior OIG and GAO Reports ........................................................ 7
     OIG Audit Approach ................................................................. 10

FINDINGS AND RECOMMENDATIONS............................................ 11
  I. ADMINISTRATION AND MANAGEMENT OF OJP’S OFFENDER
     REENTRY PROGRAMS .......................................................... 11
     OJP’s SVORI Grant Program Monitoring Efforts............................ 11
     OIG SVORI Grant Program Review Results ................................. 14
     OJP’s PRI Grant Program Monitoring Efforts ................................ 17
     OIG PRI Grant Program Review Results...................................... 19
     Second Chance Act Offender Reentry Grant Program Monitoring ... 21
     Recommendations ................................................................... 23

  II. DESIGN OF OJP’S OFFENDER REENTRY GRANT PROGRAMS . 24
      Design of Offender Reentry Programs ........................................ 24
      Effectiveness of OJP’s Reentry Grant Programs ........................... 32
      Recommendations ................................................................... 41

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS .... 43

STATEMENT ON INTERNAL CONTROLS .......................................... 45

APPENDIX I:          Objectives, Scope, and Methodology ................... 46

APPENDIX II:         SVORI Grantees Included in RTI International’s
                     Nationwide Evaluation ......................................... 56

APPENDIX III: Dollar-Related Findings Resulting From SVORI
              Grant Audits ........................................................ 58

APPENDIX IV:         The Office of Justice Program’s Response ........... 59

APPENDIX V:          Office of the Inspector General Analysis
                     and Summary of Actions Necessary to Close
                     the Report ........................................................... 64
This page intentionally left blank
                                    INTRODUCTION

       Over 650,000 people in the United States are released from federal
and state prisons annually and a greater number reenter communities from
local jails. According to the U.S. Department of Justice (DOJ) Office of
Justice Programs’ (OJP), over 50 percent of those released from prison will
be in some form of legal trouble within 3 years. 3 A significant challenge to
state and local agencies, law enforcement, and community groups is to
prevent recidivism among released inmates. 4

      Based on legislative mandates in fiscal year (FY) 2002 through
FY 2010, OJP established three offender reentry grant programs to help
state, local, and community organizations provide assistance to released
inmates as they transition from incarceration to life outside prison. These
three programs are the Serious and Violent Offender Reentry Initiative
(SVORI), the Prisoner Reentry Initiative (PRI), and the Second Chance Act
Prisoner Reentry Initiative (SCA). From FY 2002 through FY 2009, OJP
awarded $173.9 million and 154 grants under these three programs that
share a common goal: to reduce the recidivism of offenders released from
prison into communities nationwide.

     The objective of this audit was to examine OJP’s design and
management of its prisoner reentry initiatives. 5 The scope of our audit
covered the development of the SVORI grant program in FY 2002 through
the SCA grant program as of January 2010.

OJP’s Reentry Initiatives

      OJP has been awarding grants to state and municipal organizations for
the purpose of developing or strengthening their offender reentry programs
since FY 2002.



       3
       Office of Justice Programs, “Reentry,” http://www.reentry.gov (accessed
December 9, 2009).
       4
          OJP’s 2002 Serious and Violent Offender Reentry Initiative (SVORI) solicitation
defined recidivism as offenders who will commit new crimes after their release from prison.
The term recidivism was then left undefined in all offender reentry program information
from FY 2003 until BJA and OJJDP’s 2009 Second Chance Act Prisoner Reentry Initiative
program solicitations were created. These program solicitations both defined recidivism as
a return to prison, jail, or juvenile residential facility “with either a new conviction or as the
result of a violation of the terms of supervision within 12 months of initial release.”
       5
           See Appendix I for the objective, scope, and methodology of this audit.

                                              -1-
Serious and Violent Offender Reentry Initiative

      In January 2002, OJP posted a solicitation for an offender reentry
discretionary grant program entitled the “Serious and Violent Offender
Reentry Initiative: Going Home.” 6 This program was a collaborative effort
between the DOJ and its federal funding partners, the Departments of Labor
and Health and Human Services. 7 Exhibit 1 summarizes the total amount
that OJP awarded for the SVORI discretionary grant programs.

                               EXHIBIT 1
                     SERIOUS AND VIOLENT OFFENDER
                  REENTRY INITIATIVE FUNDING AWARDED
            Fiscal Year        Amount Awarded            Number of Grantees 8
               2002                  $99,519,244                 68
               2003                  $10,616,075                 66
               2004                   $6,676,863                 62
                    Total          $116,812,182
           Source: OJP


       Other participating but non-funding federal partners included the
Departments of Veterans Affairs, Education, Housing and Urban
Development, and the Social Security Administration. The goal of this
collaboration was to pool resources to increase the effectiveness of the
SVORI grant program. While other federal agencies contributed funding for
the SVORI grant program, the Bureau of Justice Assistance (BJA) and the
Office of Juvenile Justice and Delinquency Prevention (OJJDP) managed the
grant program, including awarding grant funds and monitoring grantee
activities.

    Overall, 69 grants totaling $116.8 million were awarded during the
SVORI grant program. Initial SVORI grant funding was awarded in FY 2002


       6
          According to the 2002 OJP Financial Guide, discretionary grant awards are made to
states, units of local government, or private organizations at the discretion of the awarding
agency (OJP). Most discretionary awards are competitive in nature because there are
limited funds available and a large number of potential recipients.
       7
          In FYs 2002 and 2003, the Departments of Labor and Health and Human Services
transferred approximately $52.6 million and $16 million, respectively to OJP to fund SVORI
reentry grants.
       8
          Ultimately, there were 69 SVORI grantees. However, only 68 received their initial
SVORI grant award in FY 2002. The 69th grantee, Nebraska Department of Correctional
Services (NDCS), received its initial SVORI grant award in FY 2003. In FY 2003 there were
also 65 supplemental grants awarded. All 62 awards in FY 2004 were supplemental grants.

                                           -2-
to grantees in 49 states, the District of Columbia, and the U.S. Virgin
Islands. 9 In FY 2003, supplemental funding was awarded for mental health
and substance abuse services. In FY 2004, a second round of supplemental
grant funding was awarded for grantee training, to enhance promising
practices in specific program areas, and to expand the SVORI grant program
by serving offenders in established Weed and Seed geographic target
areas. 10

       The goal of the SVORI grant program was to reduce recidivism among
high-risk offenders by providing services to high-risk offenders who faced
multiple challenges upon returning to the community from incarceration. To
achieve this goal, the SVORI grant program emphasized fostering working
relationships among service providers to more effectively deliver services to
reentering offenders. Using grant funds, grantees either built upon existing
local reentry programs or developed new reentry programs. The local
reentry programs provided services, such as substance abuse services and
employment and training assistance, to ease the transition back into the
community.

      OJP made its last SVORI grant award in FY 2004, but grantees
nationwide continued to administer SVORI grants until their individual end
dates, which ranged from FY 2005 to FY 2009. 11 In total, approximately




       9
         Ultimately, there were 69 SVORI grantees. However, only 68 received their initial
SVORI grant award in FY 2002. The 69th grantee, Nebraska Department of Correctional
Services (NDCS), received its initial SVORI grant award in FY 2003. In FY 2003 there were
also 65 supplemental grants awarded. All 62 awards in FY 2004 were supplemental grants.
       10
           The 2004 SVORI solicitation stated that supplemental funding was to build or
enhance, among other things, a promising practice, such as, for example, offender risk
assessments, successful housing placements, coordinated case management, or an increase
in the participation of faith-based and community organizations. Promising practices were
those deemed likely to reduce recidivism.

       Weed and Seed is a grant program that aims to prevent, control, and reduce violent
crime, drug abuse, and gang activity in designated high-crime neighborhoods across the
country. The more than 250 Weed and Seed sites range in size from several neighborhood
blocks to several square miles, with populations ranging from 3,000 to 50,000.
       11
           The SVORI grant program was designed so that the initial grant awards made in
FY 2002 were for a 3-year period. Program extensions were approved for some grantees.
As of April 2010, only the State of New Hampshire’s SVORI grant program was still
operating. It was scheduled to end in March 2010.


                                          -3-
$116.8 million in SVORI grant funding was awarded from FYs 2002 through
2004. 12 OJP awarded each grantee an average of $1.7 million.

       In addition to the $116.8 million in SVORI grant funding, OJP’s
National Institute of Justice (NIJ) also awarded approximately $12 million in
FYs 2003 and 2004 for an independent evaluation of the SVORI grant
program. The intent of this evaluation was to determine the SVORI grant
program’s impact on recidivism and its overall effectiveness. The evaluators
measured the costs and impact of individual reentry programs that received
funding under the SVORI grant program. Some SVORI grantees also chose
to conduct their own local program evaluations. We discuss both the NIJ
funded evaluation and some of the individual local evaluations in Finding 1 of
this report.

Prisoner Reentry Initiative

      The Prisoner Reentry Initiative (PRI) grant program was a continuation
of OJP’s efforts to fund the reintegration of prisoners into the community.
OJP again collaborated with the DOL, but under this initiative each agency
received its own grant funding to administer and award. OJP limited direct
funding to state agencies and federally recognized Indian tribes, while the
DOL made its grant funding available directly to faith-based and community
organizations. 13

      During FYs 2006 through 2008, OJP awarded 63 PRI grants totaling
$34 million to state agencies in 35 states and the District of Columbia.
Exhibit 2 summarizes the total amount that OJP awarded for the PRI
discretionary grant program.




       12
          The $116.4 million awarded to grantees included supplemental funding awarded
under the SVORI program in FYs 2003 and 2004.
       13
           OJP did not prohibit faith-based and community organizations from being sub-
recipients of its PRI grant funds. Rather, all PRI grants were made to state agencies,
typically state departments of corrections, or federally recognized Indian tribes.


                                          -4-
                             EXHIBIT 2
           PRISONER REENTRY INITIATIVE FUNDING AWARDED
            Fiscal Year      Amount Awarded            Number of Grantees
               2006               $13,384,783                 20
               2007               $10,084,969                 23
               2008               $10,251,787                 20
                    Total        $33,721,539                 63 14
           Source: OJP


       The PRI grant funding and targeted offender populations varied each
year. OJP had discretion with its PRI grant program funding because the
legislation in the accompanying appropriation laws for each fiscal year was
general and did not contain any restrictions such as limitations on the target
population or the type of services that could be funded. The majority of the
OJP grants funded under the PRI grant program remained active during our
fieldwork, which ended in January 2010. Exhibit 3 shows OJP’s self-
established funding restrictions by fiscal year.




      14
          A total of 43 unique grantees received 1-year grants under the PRI grant program
between FYs 2006 and 2008. Some of these grantees received multiple grants over the 3-
year period and were counted separately under each year.

                                          -5-
                        EXHIBIT 3
 PRI GRANT PROGRAM PARTICIPANT AND FUNDING RESTRICTIONS
                     BY FISCAL YEAR
Fiscal
               Participant Restrictions 15             Funding Restrictions
Year
              No juvenile offenders          Pre-release: OJP funding could be used
                                             for any pre-release service.
              No sex offenders
2006                                         Post-release: OJP funding could not be
              Violent offenders allowed      used for post-release services. DOL was
              upon receiving a waiver from   responsible for post-release services.
              OJP
              No juvenile offenders          Pre-release: OJP funding could be used
                                             for any service.
              No sex offenders
2007                                         Post-release: OJP funds passed through
              Violent offenders allowed      the grantee to faith-based and community
              upon receiving a waiver from   organizations could only be used for post-
              OJP                            release employment services.
                                             Pre-release: OJP funding could be used
              No juvenile offenders          for any service.

2008          No sex offenders               Post-release: OJP funds passed through
                                             the grantee to faith-based and community
                                             organizations could be used for any
                                             service.
Source: OJP


      The PRI grant program shared a common objective similar to that of
the SVORI grant program – to reduce recidivism by helping released inmates
find work and to provide them access to other critical services in their
communities. However, the PRI grant programs differed from the SVORI
grant program in the following ways: (1) juvenile offenders were not
allowed to participate in the PRI program; (2) offenders released from local
incarceration facilities were eligible to participate in the PRI grant programs
but were not eligible for the SVORI program; and (3) non-violent offenders
were allowed to participate in the PRI program but not SVORI.

       An assessment of the 2006 PRI grant program was conducted by a BJA
training and technical assistance contractor. The assessment focused on:
(1) the degree to which PRI grantees had been able to achieve the goals of
the initiative; (2) the nature of pre-release services provided; and (3) issues
relating to internal BJA operations and coordination with the DOL faith based

         15
          The FY 2007 PRI grant solicitation omitted the no sex offender requirement and
the violent offender’s waiver.

                                             -6-
community organizations providing pre-release services. This evaluation is
discussed in detail in Finding 1 of this report.

Second Chance Act Prisoner Reentry Initiative

      In April 2008, the President signed into law the Second Chance Act of
2007. The SCA’s stated purpose was “to build upon the innovative and
successful State reentry programs developed under the SVORI.” 16 The SCA
adopted and enhanced key elements of the PRI grant program, such as drug
treatment, mentoring, and transitional services for ex-offenders through
partnerships with local corrections agencies and faith-based and community
organizations.

       While the SVORI and PRI grant programs limited the eligibility of
participants, the SCA legislation and solicitations allow each grant applicant
to define program participant eligibility. This allowed grantees to address
what they consider the most significant issues facing their community.

       In September 2009, OJP awarded 20 SCA grants totaling
$11.4 million. In FY 2010, Congress appropriated $37 million for the
FY 2010 SCA offender reentry demonstration grant programs. As of
April 2010, these funds had not yet been awarded. 17

Prior OIG and GAO Reports

      The Department of Justice Office of the Inspector General (OIG) and
the Government Accountability Office (GAO) have previously reported on
DOJ’s grant monitoring and documentation efforts, as well as DOJ’s offender
reentry efforts within OJP. These reports are summarized below.

Office of the Inspector General Reports

       From January 2005 through September 2008, the OIG issued four
audit reports on the SVORI program grants that identified significant
deficiencies in OJP’s oversight of the grants and the grantees’ use of the




       16
            42 U.S.C.A. § 17501 (2008).
       17
          Overall, OJP was appropriated $100 million for offender reentry programs as part
of the SCA legislation in FY 2010.


                                          -7-
funds. 18 Specifically, the four reports found that grantees: (1) did not
properly monitor their sub-grantees; (2) did not properly monitor their
contractors; and (3) claimed and were reimbursed for unallowable and
unsupported costs. As a result of these and other deficiencies, the OIG
questioned $1,782,952 in grant expenditures. 19

      Additionally, for the past 10 years the OIG has identified grant
management as 1 of DOJ’s top 10 management challenges. Specifically, the
OIG top challenges reported that grant management continues to be a
challenge within the DOJ for several reasons, including the following:

       •    Many grantees do not submit required financial and progress
            reports or do not submit them in a timely fashion.

       •    DOJ’s granting agencies struggle with effectively monitoring
            grantees’ activities.

       •    OJP has not consistently awarded grant funds in a timely manner.

       •    Grantees continue to spend significant amounts of OJP grant funds
            on unallowable and unsupported costs and do not consistently
            comply with applicable laws, regulations, and terms and conditions
            of the grants, resulting in significant dollar-related findings.

U.S. Government Accountability Office Reports

      The GAO did not review any of OJP’s reentry grant programs (SVORI,
PRI, or SCA). However, GAO has reviewed general grant management
issues in DOJ, and some of GAO’s findings relate to the reentry grant
programs that we reviewed.




       18
          See Office of Justice Programs Serious and Violent Offender Reentry Initiative
Grant Awarded to the City of Oakland, California, Audit Report GR-90-08-004 (September
2008); Office of Justice Programs Serious and Violent Offender Re-Entry Initiative Grant
Administered by the Michigan Department of Corrections Lansing, Michigan, Audit Report
GR-50-05-004 (January 28, 2005); Office of Justice Programs Grants Awarded to the
Washington Department of Corrections Olympia, Washington, Audit Report GR-90-08-002
(March 2008); and Office of Justice Programs Grant Awarded to the Colorado Department of
Corrections Colorado Springs, Colorado, Audit Report GR-60-05-006 (April 2005). See
Appendix I for additional details.
       19
          Finding II and Appendix I of this report contain more detail about the results of
these audits.

                                            -8-
      In January 2003, the GAO released a report as part of a series of
reviews on DOJ management challenges. 20 In its report, GAO identified long
standing issues regarding grant management, including the lack of
necessary documentation to verify that monitoring activities occurred for
discretionary grant programs. The GAO recommended that OJP:

      •    develop procedures to systematically review case files to ensure
           consistent documentation across OJP; and

      •    explore methods of electronically maintaining grant documentation
           with the goal being to facilitate more consistent documentation,
           more accessible management oversight, and sound performance
           measurement.

      The GAO’s October 2001 grant report stated that the OJJDP grant files
lacked sufficient documentation of telephone contacts, site visits, progress
and financial reports, and closeout procedures. Additionally, the GAO
concluded that OJJDP was neither systematically overseeing grant managers’
compliance with its monitoring requirements nor assessing the effectiveness
of OJJDP’s grant monitoring practices. The GAO recommended that:

      •    the OJJDP assess whether the shortcomings resulted from a lack of
           grant monitoring activities or from a failure to document those
           activities;

      •    if OJJDP determined that grant monitoring was not taking place,
           investigate why and develop solutions to address these deficiencies;
           and

      •    if there was a failure to document grant monitoring activities, OJJDP
           develop and enforce clear expectations regarding monitoring
           requirements and that supervisory review be included in any new
           policies to ensure grant monitoring activities occur.

      Although these findings and recommendations are 9 years old, we
believe that they are relevant to our review because we identified similar
findings in this audit.




      20
         U.S. Government Accountability Office, Major Management Challenges and
Program Risks: Department of Justice, GAO-03-105 (January 2003).

                                        -9-
OIG Audit Approach

      The objective of this audit was to examine OJP’s design and
management of its three prisoner reentry grant programs. The scope of our
audit covered the development of the SVORI grant program in FY 2002 and
subsequent OJP reentry grant programs through January 2010.

      We performed audit work at OJP headquarters, including, the offices of
the BJA, OJJDP, and the NIJ. In addition, we conducted additional audit
work at the Office of Community Oriented Policing Services (COPS) and the
DOL headquarters. 21 We also reviewed 10 SVORI and 10 PRI grants. 22

      To accomplish our objective, we conducted the following audit work:

      •    reviewed laws, regulations, and other guidance regarding OJP’s
           reentry program grant funding, design, management,
           administration, award activities, policies, and procedures;

      •    interviewed OJP, BJA, OJJDP, COPS, and grantee officials
           responsible for the design, implementation, and evaluation of the
           prisoner reentry grant programs;

      •    reviewed documentation related to the reentry grant programs,
           including program solicitations, grant award documentation, and
           monitoring documentation relating to grants awarded between
           FYs 2002 through 2009;

      •    analyzed the results of nine OIG audits of reentry grant programs
           issued from January 2005 through November 2009; and

      •    analyzed the responses to the previously issued OIG and GAO
           reports to determine if corrective actions had been taken or
           initiated for insufficiencies identified.

     More details on the audit objective, scope, and methodology are
presented in Appendix I.




      21
          In FYs 2001 through 2009, COPS transferred over $120 million to OJP to fund
reentry grants.
      22
           See Appendix I of this report for a list of grantees and awards we reviewed.

                                           - 10 -
                  FINDINGS AND RECOMMENDATIONS

I.    ADMINISTRATION AND MANAGEMENT OF OJP’S
      OFFENDER REENTRY PROGRAMS

      Our audits of 10 SVORI grantees found that grantee
      program compliance and performance was inadequate, and
      we questioned grant expenditures totaling about
      $5.2 million. 23 Furthermore, a review of OJP’s official
      SVORI grant files identified little to no documentation of
      grant monitoring activities, such as desk reviews. These
      monitoring activities are crucial to assess the quality of
      grantee data, as well as grantee progress toward achieving
      program goals — both of which are necessary to assess
      the effectiveness of the reentry grant programs. While we
      saw an increase in documentation of grant monitoring
      activities for the PRI grant program, monitoring
      deficiencies remained. We recommend that OJP establish
      a more effective system of monitoring SCA grant programs
      to identify program issues early and to make adjustments
      when necessary to improve program performance.

OJP’s SVORI Grant Program Monitoring Efforts

       Policy advisors in OJP’s BJA and OJJDP were responsible for the day-
to-day monitoring of the SVORI grantees. 24 In June 2001, OJP developed
the Grant Manager’s Manual to provide a practical tool and reference guide
for the OJP personnel responsible for grant processing, management, and
monitoring. This manual, which was in effect during the SVORI grant
program period, provided general guidance on the broad objectives and
goals for proper grant monitoring and suggested that desk reviews of grant
files should be conducted quarterly. A desk review or desk monitoring
consists of reviewing grant files at OJP to ensure they are current, accurate,
and complete in order to assess grantee performance and compliance.
Because the manual did not provide specific details on how OJP managers
should conduct and document their grant monitoring efforts, we interviewed
OJP officials about this issue.



      23
           See Appendix III for a table of the questioned costs.
      24
         Although OJJDP managed 23 of the 69 total SVORI grants, the BJA awarded all 69
SVORI grants.

                                            - 11 -
       According to OJP officials, the monitoring process varied within each
OJP division, and there was not an OJP-wide standardized process for
monitoring grantees or for documenting monitoring efforts. At the inception
of the SVORI grant program in FY 2002, OJP program managers used their
own discretion and knowledge of grants to create annual monitoring plans
and to determine which grants required further review. Each grant manager
was responsible for ensuring that documentation of his or her monitoring
efforts was maintained in both the official grant files and the Grants
Management System for each grant award under his or her purview.

      In August 2005, BJA created a Monitoring Guide, which required
the completion of desk reviews semi-annually with deadlines of
March 31 and September 30. 25 In addition, according to the
Monitoring Guide, documentation of completed desk reviews must be
maintained in the Grants Management System.

      The Grant Manager’s Manual was revised in April 2008 to require
that desk reviews be conducted approximately once every 6 months
but no less than annually. Prior to this revision, OJP did not have a
policy that stated how often desk reviews should be conducted. The
current Grant Manager’s Manual was revised in October 2008, but
grant monitoring requirements remained the same.

OIG Review of OJP’s SVORI Grant Files

      OJP maintains supporting documentation of its management and
administration of OJP grants in official hardcopy files and in the Grants
Management System. Since the Grants Management System’s inception in
2002, OJP has slowly converted to maintaining grant documents primarily in
electronic format.

      We reviewed the Grants Management System and hardcopy files for
evidence of desk reviews, onsite visits, telephone and e-mail contacts with
the grantee and other available monitoring documentation. To assess OJP’s
monitoring efforts we also reviewed the same grant files to determine the
grantee’s compliance with reporting requirements.

      At OJP headquarters, we judgmentally selected and reviewed 24
out of 69 SVORI grantees. According to the information in the Grants
Management System, from August 2002 through June 2009 45 desk
reviews were documented out of a possible 264 semi-annual desk

      25
        The Bureau of Justice Assistance Monitoring Guide dated August 19, 2005, is a
supplement to chapter 8 of the Grant Manager’s Manual.

                                         - 12 -
review opportunities for the 24 sampled grantees. Although the
requirements for preparing desk reviews changed between 2002 and
2009, we believe that OJP should have conducted and documented
more desk reviews than the 45 that we identified.

       We also found that 40 percent of the desk reviews performed
were either incomplete or improperly prepared and nearly half of the
desk reviews we examined lacked supervisory signatures and
approvals. We believe desk reviews should be conducted regularly to
ensure grant files are current, accurate, and complete. In addition,
regular desk reviews could identify grantees that are experiencing
difficulties fulfilling the terms of the grant and need more intensive
monitoring, training, and technical assistance.

       OJP also monitors grantees by reviewing reports that grantees
are required to submit. The OJP Financial Guide requires grantees to
submit to OJP two types of reports: Financial Status Reports and
program progress reports. Financial Status Reports provide OJP with
information regarding funds spent and the unobligated amounts
remaining for grants. Grantees are required to submit the Financial
Status Reports within 45 days after the end of each calendar quarter.
Program progress reports, which provide information on the status of
funded activities, are required to be submitted to OJP within 30 days
after the end of each semi-annual reporting period.

      We examined the SVORI grant files for the 24 sampled grantees
in order to identify evidence of the grantees’ compliance with reporting
requirements. We found that on average, 21 percent of the Financial
Status Reports were submitted late. Further, we found that on
average, 21 percent of the Financial Status Reports could not be
located even though they were identified in OJP’s Grants Management
System as having been submitted to OJP. With regards to semi-
annual progress reports, we found that on average 53 percent were
submitted late. In addition, an average of 21 percent of the progress
reports could not be located even though they were identified in OJP’s
Grants Management System as having been submitted. All 23 SVORI
grantees whose grants had ended submitted their final progress report
to OJP; however, almost 50 percent of them were submitted an
average of nearly 4 months late. 26 In our opinion, OJP cannot

       26
          We were unable to compare this aspect of grant monitoring to OJP’s efforts in
monitoring PRI grant programs because the PRI grant program has not ended and final
progress reports have not been submitted.


                                          - 13 -
effectively monitor its grantees without timely financial and
programmatic information.

OIG SVORI Grant Program Review Results

      We reviewed 10 SVORI grant audits issued from January 2005 through
November 2009 to determine whether grantees administered the SVORI
programs in compliance with essential grant requirements. The 10 SVORI
grants had a total award amount of $17.9 million. Based on the results of
our external grant audits, we identified significant weaknesses and dollar-
related findings that totaled $5,016,892 in questioned costs (or
approximately 29 percent of the total award amount) and $134,362 in funds
that could be put to better use. 27

       We reviewed the results of the individual OIG SVORI grant audits to
identify indications of inadequate OJP monitoring. Specifically, we found
weaknesses in the following areas: (1) monitoring of sub-recipients and
(2) accomplishments and completion of goals. We describe these issues
below.

Monitoring Sub-contractors and Sub-recipients

       According to the OJP Financial Guide, the primary recipient of grant
funding is responsible for monitoring grant sub-recipients to ensure that all
fiscal and programmatic responsibilities are fulfilled. During our review of
the OIG external grant audits, we found that 8 of the 10 SVORI grantees we
reviewed had sub-recipients under their grant-funded program. However,
five out of the eight grantees did not adequately monitor grant sub-
recipients. The monitoring deficiencies included inadequate reviews of sub-
recipients’ performance and financial documentation to ensure program
records were maintained, accurate, and complete, and that grant funds were
spent appropriately.

      Failure to adequately monitor sub-contractors and sub-recipients
increases the risk that grant goals will not be met and increases the risk of
fraud, waste, and abuse.


       27
           Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation. Funds that
could be put to better use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations. See
Appendix III for the list of questioned costs and funds to better use.

                                          - 14 -
Goals and Accomplishments

       Many of the SVORI grantees we reviewed had difficulty meeting the
goals and objectives of their grants. We found that generally the target
populations identified in the grant applications were served under the SVORI
grant program. However, in the Delaware Health and Human Services
(Delaware HHS) and Michigan Department of Corrections grant programs the
number of participants fell short of their stated expectations of how many
participants would complete the reentry programs. For example, at the
Delaware HHS, only 96 of the 303 offenders (32 percent) who started the
post-release phase of the SVORI grant program successfully completed the
program. This is a significant shortfall from the Delaware HHS’s overall goal
of at least 300 offenders successfully completing the program each year for
3 years. While Texas exceeded their planned participation of 150 with 200
participants, only 5 completed the program. Finally, the District of Columbia
had a big disparity between its planned yearly participation of at least 1,200
and their actual participation of 259. Exhibit 4 illustrates the comparison of
anticipated to actual participants in each of the SVORI reentry programs we
reviewed.




                                    - 15 -
                             EXHIBIT 4
             PARTICIPANT INFORMATION FOR SVORI GRANTS
                                          Number of
                                            Actual         Number of
                                         Participants     Participants
                        Number of         Admitted            Who             Were all
                         Planned             Into          Completed        Participants
Grantee                Participants        Program          Program          Eligible? 28
Delaware               300 per year
                                              303               96               Yes
                        for 3 years
South Carolina            50 - 60             122               32               Yes
New York                     60               128               54               Yes
Texas                    100 - 150            200                5               Yes
Nebraska                   60-90               36               2                Yes
District of               1,100 or
                                              259               75               Yes
Columbia               more per year
Michigan               At Least 250            99               64           Not Audited
                                                                              Could Not
Oakland, California    At Least 120      Not Reported            5
                                                                             Determine
Washington                  834          Not Reported          24                Yes
Colorado                    205          Not Reported     Not Reported       Not Audited
Source: OIG Review of Grant Documentation

      In addition, 6 of the 10 SVORI grantees we audited ranged from
questionable success to failure in their attempts to meet stated goals and
objectives.

       •    Delaware HHS’s failure to adequately monitor its contractors
            resulted in questioned costs of $2,593,494, which was over
            99 percent of its grant award of $2,603,234. These questioned
            costs consisted primarily of payments to supplement existing
            mental health and substance abuse services aimed at increasing
            case management capacity and initiating a state-wide reentry
            effort.

       •    In New York, two internal reviews conducted by OCFS’ Office of
            Strategic Planning and Program Development made
            recommendations for improving the program, such as improving
            documentation of program activities and enhancing staff size and
            training. However, the program continued for more than 2 years


       28
           Two of the SVORI grant audits, the Michigan Department of Corrections and the
Colorado Department of Corrections, were conducted before the start of this audit and did
not include a review of participant eligibility. The documentation provided by Oakland,
California, did not provide enough information to determine participant eligibility.

                                          - 16 -
         and expended over $500,000 in grant funds without taking
         significant action on the recommended improvements.

     •   Although the Texas Department of Criminal Justice generally made
         adequate progress towards accomplishing SVORI program goals, we
         found that 79 out of 117 (68 percent) SVORI participants had
         violated their parole and 77 percent had been arrested after their
         release. These high recidivism rates could be an indication that the
         primary program goal of improving public safety by successfully
         reintegrating parolees into the community was not being met, and
         the grantee did not have an alternative method for measuring if its
         program was successful.

     •   Eight of the nine progress reports submitted by the District of
         Columbia Justice Grants Administration did not contain information
         on grant activities that could be verified, making it impossible to
         assess whether SVORI program goals were met.

     •   The City of Oakland, California, did not exercise adequate
         programmatic oversight of its Project Choice program to ensure
         that services had been provided to eligible program participants,
         that contractors maintained accurate and complete records of
         program participants and their outcomes, and that records were
         retained for audit purposes.

     •   Although the Washington Department of Corrections generally met
         its SVORI program objectives and nearly met their enrollment goal
         of 834 with 760 enrolled, 62 percent of participants had been re-
         convicted for a felony or misdemeanor within 18 months of release
         from prison. Washington underwent a local evaluation whose final
         results will not be available until 2011.

      Six of the eight SVORI grantees whose review included an assessment
of performance reported the performance measures required by OJP.
However, none of these six grantees provided supporting documentation for
the performance measures they reported.

OJP’s PRI Grant Program Monitoring Efforts

      OJP’s BJA was responsible for the daily monitoring of the PRI grantees.
As previously stated, in 2005 the BJA published its own monitoring guide as




                                    - 17 -
a supplement to the Grant Manager’s Manual. 29 This guide required semi-
annual desk reviews. In addition, the revised April 2008 OJP Grant
Manager’s Manual states that desk reviews “should” be conducted semi-
annually, and are “required” annually.

       We judgmentally reviewed 23 out of 63 PRI grant files (printed
and electronic) for evidence of desk reviews, on-site visits, and other
monitoring documentation to assess the extent of OJP’s monitoring
efforts. We also reviewed grantee compliance with reporting
requirements.

      From January 2006 through June 2009, OJP conducted 29 desk
reviews. However, we found that 19 (66 percent) of the reviews were
incomplete or improperly prepared and lacked supervisory approvals.

      In FY 2008, after the requirement for desk reviews was
established, we found that only 14 of the 23 PRI grants we sampled
had conducted at least 1 desk review. This meant that OJP did not
follow its own requirement for the remaining 9 grants (39 percent) we
sampled.

       When we examined the PRI grant files for evidence of the
grantee’s compliance with reporting requirements, we found minor
deficiencies. 30 All required PRI progress reports were submitted. We
believe the improvements that OJP has implemented in the Grants
Management System, including the creation of electronic reminders
when progress reports are due, appear to have played a role in
reducing the number of late and missing Financial Status Reports and
program progress reports identified in the PRI grant files. Overall,
OJP’s development of the Grants Management System has enhanced
its ability to monitor grantees. For example, the Grants Management
System sends electronic reminders to grantees when reports are due.
When reports are not submitted on time, an automatic trigger in the
Grants Management System freezes funds until the reports are
submitted.



       29
          In the event office-level policy, procedures, or guidance conflict with the
provisions of the Grant Manager’s Manual, the Grant Manager’s Manual is the controlling
document.
       30
           Of the 23 PRI grantees we reviewed, we found that on average grantees
submitted 1 Financial Status Report late and we could not locate documentation for 2 other
Financial Status Reports.

                                          - 18 -
      In addition, our review of PRI case files identified an increase in
OJP’s grant monitoring activities in the form of more documented desk
reviews, on-site visits, and increased compliance with financial and
programmatic reporting requirements. 31 We found that 40 percent of
the OJP’s SVORI grant program desk reviews were either incomplete
or improperly prepared while our review of the same for the PRI grant
program found evidence that 66 percent were incomplete or
improperly prepared. This represents a significant decrease in the
quality of the desk reviews prepared for the PRI grant programs.
While an increase in the frequency of OJP’s monitoring efforts is
encouraging, OJP should also improve the quality of its monitoring
documentation, which could improve OJP’s responsiveness to grantee
non-compliance, as well as grantee training and technical assistance
needs.

OIG PRI Grant Program Review Results

      The OIG conducted PRI grant program reviews to test the grantees’
compliance with essential award conditions relevant to the program’s goals
and accomplishments, reporting (excluding Financial Status Reports), and
monitoring of sub-recipients. As of September 2008, the BJA had awarded
63 PRI grants to state agencies to continue the prisoner reentry programs.
We reviewed 10 PRI grants issued between January 2006 and September
2008. Our PRI grant reviews were limited to examinations of grantee
performance. 32

     In our reviews, we identified significant weaknesses related to OJP’s
monitoring of the 10 PRI grant programs, which are described below.

Goals and Accomplishments

       We found that the grantees had established reentry programs in which
eligible inmates received the services specified in the grant applications. In
addition, the programs generally provided services in a manner that allowed
the grantees to accomplish the goals and objectives stated in the grants.
However, the 2006 through 2008 PRI grant program solicitations required
that grant programs anticipate at least 200 participants. Exhibit 5 illustrates

       31
          We found that OJP conducted 29 desk reviews of PRI grant programs within a
span of 3 years versus 45 total desk reviews of SVORI grant programs within a span of
7 years.
       32
          We did not test grantees’ compliance with: (1) accounting and internal controls,
(2) budget management and controls, (3) expenditures, (4) fund draw-downs, (5) program
income, (6) local matching requirements, and (7) indirect costs.

                                          - 19 -
the comparison of anticipated to actual participants in each the PRI grant
programs reviewed.

                                      EXHIBIT 5
                      PARTICIPANT INFORMATION FOR PRI GRANTS
                                                  Number of
                                                 Participants
                                    Number of   Who Continued
                      Number of    Participants  Participation
                       Planned    Admitted Into for 12 Months                         Were All
   Grantee           Participants   Program 33  After Release                         Eligible?
Florida 2006              200         2,754            5                                 Yes
Florida 2007              200         1,120            1                                 Yes
Illinois 2006        200 or more         0       Not Tracked 34                          No
Colorado                                               5
                     At least 200       64                                               Yes
2007
Colorado                                                            n/a
                      At least 200            116                                        Yes
2008
Texas 2006            200 per year            189                   10                   Yes
New York                                                            n/a                  Yes
                      At least 400            246
2006
New York                                                            n/a                  n/a
                           200                 n/a
2008
District of                                                    Not Tracked               Yes
Columbia              At least 200             n/a
2007
Washington                                                     Not Tracked               Yes
                      At least 200             55
2006
Source: OIG Review of Grant Documentation

      As of December 31, 2009, these programs were still ongoing, although
the New York State Division of Criminal Justice Services had not yet started
the program that was funded by the 2008 PRI grant award. 35 It is clear
from the information in Exhibit 8 that certain programs such as the 2006
New York State Division of Criminal Justice Services and the 2006 Illinois
Department of Corrections programs do not appear to be on track to achieve

          33
         These numbers were taken from the progress reports for the 6-month period
ending December 31, 2009.
          34
               The grantee did not track the participants once they left the adult transition
center.
          35
           Only 3 of the 10 PRI grants reviewed were likely to continue to receive funding.
Two were less likely to be continued, one was not going to be continued, and four were
unlikely to be continued due to financial constraints.


                                                - 20 -
their goal of serving at least 200 participants after 2 years into the program.
We recommend that OJP grant managers monitor progress reports and
performance measures to identify instances where grantees are not
complying with grant requirements and may need training and technical
assistance.

Reporting

       Grant progress reports provide information on the status of funded
activities and are required to be submitted to OJP within 30 days after the
end of each semi-annual reporting period. According to the OJP Financial
Guide, they should include information about the performance of activities or
the accomplishment of program objectives. 36

      Four of the nine PRI grants in which we reviewed progress reports
included reports that were late, incomplete, unsupported, or inaccurate.

       For example, during our review the Illinois Department of Corrections
submitted six progress reports. All report narratives were inadequate and
did not address program accomplishments. In fact, during a review of a
judgmental sample of 20 participant case files, we determined that 3
participants who had successfully completed the PRI grant program were
back in custody, but the progress reports consistently reported no
participants were re-incarcerated. We did not find any information in the
case files concerning offender status after they left the correctional system.
We also did not find in the files any information concerning the recidivism
rate of participants in the program.

      All 9 of the 10 PRI grantees whose programs had been implemented
reported the performance measures required by OJP. However, only five of
these nine grantees provided supporting documentation for the performance
measures they reported.

Second Chance Act Offender Reentry Grant Program Monitoring

      Because the initial SCA grants were awarded in September 2009,
we could not evaluate the monitoring and effectiveness of the SCA
grant program. Our discussion related to the SCA grant program is
limited to the adequacy of the performance measures designed to
monitor the program’s progress.


      36
          Since our reviews of the PRI grants focused on performance, we limited our
reporting review to progress reports.

                                          - 21 -
      OJP’s BJA and OJJDP staff are responsible for monitoring the SCA
grantees. The SCA legislation does not contain specific grant monitoring
requirements. Therefore, the October 2008 Grant Manager’s Manual
remains the primary grant monitoring guidance for OJP grant managers and
the BJA’s August 2005 Monitoring Guide continues to provide additional
grant monitoring guidance for BJA’s grant managers.

        OJP officials stated that OJP has begun using the information contained
in the Grants Management System as the official grant file. However, as
previously mentioned, OJP officials stated that the Grants Management
System is an inadequate performance measurement collection system that
cannot perform data analysis functions. One example of this is the fact that
OJP’s Grant Management System has allowed grantees to submit data
unresponsive to the required performance measures. Therefore, the BJA will
use the Performance Measurement Tool to collect performance measurement
data for the SCA grant programs. 37 BJA officials stated that the Performance
Measurement Tool will allow OJP to program data fields to accept only a pre-
determined format (numerical or narrative) to prevent grantees from
submitting data unresponsive to the required performance measures. In
addition, the Performance Measurement Tool will include a decision tree
structure that will allow grantees to answer only the measures relevant to
their grant programs which leads to a lighter reporting burden on grantees.
Further, the Performance Measurement Tool will provide greater
performance measurement information for grantees such as definitions and
frequently asked questions. Finally, the Performance Measurement Tool will
enable OJP and grantees to produce real-time reports and more efficiently
analyze the performance measures collected. The real-time data collected
from grantees will allow comparison of their performance with other
grantees. OJP estimates that the Performance Measurement Tool will be
available for use with the SCA program grants in June 2010. We believe
that if the Performance Measurement Tool operates as intended, it will
facilitate a more accurate and efficient assessment of grantee performance
measures.

       OJJDP SVORI grantees submitted performance data to OJP through the
Grants Management System. However, OJJDP’s SCA grantees will submit
their performance measurement data through OJJDP’s Data Collection and

       37
           The BJA manages the contract with CSR, Incorporated for the development and
implementation of the Performance Measurement Tool. Through January 2010, nearly
$2.8 million has been spent on the Performance Measurement Tool development,
implementation, training and technical assistance, reporting, and analysis. In addition,
CSR, Incorporated will assist the BJA in analyzing the performance data collected through
the Performance Measurement Tool.


                                          - 22 -
Technical Assistance Tool. 38 This Data Collection and Technical Assistance
Tool will be used to support OJJDP grantees’ ability to identify, collect, and
submit grantee performance data. It is a secure web-based tool that allows
OJJDP grant managers to access the system, view data from all grantees,
and track funds by award number. Grantees are able to view data they
submit as well as data submitted by their sub-grantees, if applicable.
Further, there is a process available to make the data in the Data Collection
and Technical Assistance Tool easily accessible to statistical software and
therefore facilitate data analysis.

     We recommend that OJP continue to improve its grant
monitoring process for the SCA reentry grant programs by addressing
untimely reports, the lack of grant performance, and deficiencies in
annual desk reviews.

Recommendations

   We recommend that OJP:

   1.        Ensure that reentry grantees implement and adhere to procedures
             that will result in the timely submission of complete and accurate
             Financial Status Reports and program progress reports.

   2.        Require that reentry grantees monitor grant performance to ensure
             they achieve program goals and objectives.

   3.        Enforce the Grant Manager’s Manual requirement to perform and
             document annual desk reviews.

   4.        Implement the Performance Measurement Tool and use it to collect
             and analyze performance measures data collected from the SCA
             grant programs.




        38
           OJJDP awarded a contract to ICF International (formerly known as Caliber
Associates), to design, develop, and operate a web-based Data Collection and Technical
Assistance Tool to facilitate the data collection of performance measures and indicators
reflecting program outputs and outcomes from grantees for each of the Juvenile
Accountability Block Grant program’s 16 Purpose Areas. The earlier version of the Data
Collection and Technical Assistance Tool was used to collect data for the data reporting
period of October 1, 2003, through March 31, 2005. In 2005, the contract was re-competed
and CSR, Incorporated took over the Data Collection and Technical Assistance Tool.

                                        - 23 -
II.    DESIGN OF OJP’S OFFENDER REENTRY GRANT
       PROGRAMS

       We identified design flaws in the initial implementation of
       OJP’s SVORI and PRI reentry grant programs. Specifically,
       we found that OJP did not adequately define key terms
       essential for determining whether program goals were
       met, did not require grantees to identify baseline
       recidivism rates needed to calculate changes in recidivism,
       and did not analyze performance measurement data. As a
       result of these design flaws, neither OJP nor the OIG could
       determine the effectiveness of OJP’s prior grant programs
       in reducing recidivism.

Design of Offender Reentry Programs

       Adequate program design is an important element of any grant
program. Program design is essential for deciding what data will be
collected and who will collect and analyze the data to determine program
effectiveness. Some programs such as SVORI and PRI, received little or no
legislative direction, which allowed the funding agency to have sole program
design responsibility. Other programs, such as SCA, are created through
prescriptive legislation that directs the funding agency in the specifics of a
program’s design.

       During our review of OJP’s design of its three reentry programs, we
identified weaknesses and deficiencies related to OJP’s efforts to measure
recidivism, design adequate performance measures, analyze performance
measurement data collected from grantees, and adequately identify target
populations.

Inability to Adequately Measure Recidivism

      The primary goal of the three reentry grant programs was to reduce
recidivism among offenders who were released from prison. In order to
measure recidivism rate changes, recidivism needs to be clearly defined.
The definition should include the duration of time the offender will be
monitored and the conditions that constitute recidivism. 39 In addition, a


       39
           Conditions that constitute recidivism may include one or all of the following:
arrest for a new offense, a return to incarceration, a violation of the terms of release, or
prosecution for a prior crime.


                                            - 24 -
baseline recidivism rate should be identified and compared to subsequent
recidivism rates to determine a reentry grant program’s effect on recidivism.

       Recidivism

       During our review of the FYs 2002 through 2004 SVORI solicitations,
we did not find an adequate definition of recidivism that could be used to
measure and evaluate program results. OJP’s FY 2002 SVORI solicitation
referred to recidivism as the commission of new crimes by offenders after
their release from prison. This definition did not specify a timeframe in
which to track a program participant’s new offense. Further, the 2003 and
2004 SVORI supplemental solicitations did not include a definition for
recidivism.

       OJP did not award grant funds in FY 2005, and resumed its efforts in
FY 2006 with the first PRI grant program solicitation. The goal of PRI was to
link returning adult, non-violent offenders with faith-based and community
organizations to help them find work and avoid relapse into criminal activity.
OJP subsequently offered two additional PRI program solicitations in
FYs 2007 and 2008.

       In the PRI grant program, as in the SVORI grant program, OJP initially
did not define recidivism. DOL officials, who awarded PRI grants for 3 years
directly to faith-based community organizations, stated that they took the
lead in establishing uniform definitions of recidivism. They relied on a DOJ
Bureau of Justice Statistics (BJS) definition of recidivism included in a BJS
study. 40 They acknowledged their surprise to find out in April 2008 — the
third year of the PRI grant program — that OJP was not using the BJS
definition of recidivism. DOL officials stated that shortly after the 2008
grants were awarded, they convinced BJA to develop a uniform recidivism
definition to use for the DOJ programs and the DOL programs.




       40
            U.S. Department of Justice Office of Justice Programs Bureau of Justice Statistics,
Recidivism of Prisoners Released in 1994, Special Report NCJ 193427 (June 2002). “The
study uses four measures of recidivism: rearrest, reconviction, resentence to prison, and
return to prison with or without a new sentence. Except where expressly stated otherwise,
all four study measures of recidivism refer to the 3-year period following the prisoner’s
release in 1994.”


                                            - 25 -
In January 2009, OJP disseminated revised program requirements to its PRI
grantees, which included a definition for recidivism. 41

       The BJA and OJJDP SCA grant program solicitations for FY 2009 and
FY 2010 reflect language from the legislation stating “project[s] must have
as a goal the reduction of recidivism by 50 percent within a five-year
period.” The BJA and OJJDP program solicitations for FY 2009 and FY 2010
include a measurable definition of recidivism as a return to a detention or
incarceration facility “with either a new conviction or as the result of a
violation of the terms of supervision within 12 months of initial release.”

       Baseline Recidivism Rate

      In the grant solicitations for each fiscal year of the three reentry grant
programs, OJP did not require its grantees to submit baseline recidivism
rates. An accurate assessment of reductions in recidivism cannot be
conducted without a baseline recidivism rate. We recommend that OJP
request baseline recidivism rates from grantees so that recidivism rates can
be compared.

      The Acting Administrator of the OJJDP stated that he did not know why
grantee baseline recidivism rates were not required. The Acting Director of
the BJA stated that it should not request grantee baseline recidivism rates
because of changes in the target population and geographic location of grant
programs that occur after the grant has been awarded but prior to the grant
program’s implementation. The Acting Director of the BJA also stated that
these programmatic changes occur approximately 25 percent of the time
and that grantees should not be required to collect data that may not be
used. He stated that external evaluators assist grantees in calculating
baseline recidivism rates after a target population and geographic location
has been finalized for use in the reentry programs.

      While it may be difficult to calculate baseline recidivism rates until a
target population and geographic location are finalized, it is possible to do
so. Moreover, this information is vital to determining recidivism reduction
and program effectiveness, and we believe OJP should require grantees to

       41
           Recidivism was defined in an updated OJP memorandum as “a return to prison
with a new conviction or supervision within 12 months of release.” This definition differed
from the definition used by BJS in its 2002 report because the OJP memorandum only
measures events in the 1-year period following release, while BJS used a 3-year period in
its report. In addition, the definition in the OJP memorandum does not include re-arrests
while BJS did include re-arrests in its 2002 report. U.S. Department of Justice Office of
Justice Programs Bureau of Justice Statistics, Recidivism of Prisoners Released in 1994,
Special Report NCJ 193427 (June 2002).

                                           - 26 -
submit explicit baseline recidivism rates in the offender reentry grant
program solicitations.

Performance Measures

      The requirements for documenting and reporting performance
measures were not included in program solicitations until OJP issued its
2004 supplemental SVORI grant solicitation – 2 years after awarding initial
SVORI funding in 2002. When we asked BJA and OJJDP officials about the
lack of performance measures, they could not provide any explanation.
However, in the SVORI FY 2004 supplemental solicitation, OJP identified
11 performance measures that were required to be included in all
subsequent semi-annual progress reports submitted by SVORI grantees,
including those grantees that did not receive additional funding through the
2004 supplemental award.

       Although OJP required grantees to include the specific performance
measures in their semi-annual progress reports, OJP officials stated that the
submission of these measurements was only cursorily verified by program
managers in the BJA and OJJDP. These measures were not reviewed for
accuracy and were not utilized to assess whether the grantees were meeting
their performance goals. Furthermore, grantees submitted the performance
measurement data through the Grants Management System, which OJP
officials stated was an inadequate performance measurement collection
system. 42 The Grants Management System does not perform data analysis
and grantees were able to submit data that did not address the required
performance measures. For example, the grantees were allowed to submit a
narrative response for a performance measure that required a numeric
response, which did not provide the type of information needed to evaluate
program performance. OJP officials informed us that a process to assess the
grantee data in a meaningful manner was never developed.

       Although performance measures were included in the FYs 2006
through 2008 PRI grant program solicitations, OJP again did not establish a
process to assess PRI grant performance measurements. As we discuss
later in this report, BJA conducted one evaluation that focused on the
grantees’ implementation of the 2006 PRI grant programs, but no
assessments were made of the 2007 and 2008 PRI programs. Also, OJP did
not review performance measurement data to determine whether or not

      42
          OJP’s Grants Management System is an online electronic database designed to
allow OJP’s grantees access to online grant forms, submit application materials (e.g.,
program narratives and budgets) as file attachments, and submit periodic financial and
programmatic reports.

                                         - 27 -
program goals were achieved, including recidivism rate reduction, for any of
its PRI grants. Further, we found no OJP assessments of PRI grantees that
included performance measurement analyses. OJP continued to collect
grantee data through the Grants Management System with no process in
place to assess the performance measurement data being collected.

     Unlike the SVORI and PRI grant programs, the SCA grant program was
based on prescriptive legislation that identified eight specific program
outcomes:

     •    a reduction in recidivism rates, to be reported in accordance with
          the measure selected by the Director of the Bureau of Justice
          Statistics (BJS) under section 234(c)(2) of the SCA;

      •   reduction in crime;

      •   increased employment and education opportunities;

      •   reduction in violations of conditions of supervised release;

      •   increased payment of child support;

      •   increased housing opportunities;

      •   reduction in drug and alcohol abuse; and

      •   increased participation in substance abuse and mental health
          services.

       As a result, specific performance measures were included in SCA grant
solicitations that addressed all eight of the SCA’s declared performance
outcomes. For comparison purposes, Exhibit 6 shows which categories of
performance measures were included in each of OJP’s reentry program
solicitations.




                                     - 28 -
                            EXHIBIT 6
           OJP REENTRY PROGRAM PERFORMANCE MEASURES 43
                                Pre- &                     Employment,
                                Post-         Reduce        Education,
                               release      Recidivism       Housing,
                              Services,        and          Substance
                                 and         Increase     Abuse, Alcohol,
   Grant         General      Transition      Public        and Mental         Child
 Programs       Program 44      Plans         Safety      Health Services     Support
2004 SVORI          √             √              √                √
2006 PRI            √             √              √
2007 PRI            √             √              √
2008 PRI            √             √              √
2008 PRI
                    √             √              √
update
2009 BJA
                    √                            √                √                √
SCA
2009 OJJDP
                    √                            √                √
SCA
                        √ = Performance Measure Included
Source: OJP

       While the SCA performance measures generally improved upon OJP’s
past reentry program performance measures, there were still some
deficiencies. No SCA performance measures relate to pre- and post-release
services and transition plans. The SVORI and PRI grant programs contained
performance measures regarding the number of:

      •    participants referred to pre- and post-release services;

      •    participants who received pre- and post-release services;

      •    offenders for whom a transition plan was developed;

      •    offenders who completed the program; and

      •    services provided by faith- and community-based providers,
           including the types of services provided.

However, the SCA grant program did not have similar types of performance
measures.

      43
         Performance measures were not included in the FY 2002 and FY 2003 grant
program solicitations.
      44
          The general program category includes performance measures related to the
general characteristics of the target populations.

                                        - 29 -
       Requiring grantees to provide this type of performance data will allow
OJP to obtain information useful for structuring future reentry programs.
Collecting data regarding how many participants were referred and
ultimately participated in pre- and post-release services may indicate a
problem with the grantee’s program management if a low number of
participants are referred or receive post-release services. In addition,
collecting information on how many participants receive transition plans and
complete the program will help OJP identify whether grantees need training
or technical assistance, since low numbers may indicate that a grantee is
experiencing difficulties in implementing its reentry program. Further,
determining the types of services provided by the faith- and community-
based grantees may provide OJP with information on which services make a
program more successful in achieving performance outcomes.

       We believe that such performance data would assist OJP in designing
future reentry programs. However, OJP did not adequately refer to its prior
grant programs and review lessons learned when designing new reentry
grant programs. We interviewed the Senior Policy Advisor for BJA who
drafted BJA’s 2009 SCA grant solicitation, and he said that he referred to the
results of an October 2008 planning meeting and the SCA legislation when
designing the 2009 SCA grant program. 45 In addition, he said he drew upon
his own experience within the corrections field to draft BJA’s 2009 SCA grant
solicitation. However, he acknowledged that he did not review lessons
learned from OJP’s SVORI and PRI offender reentry grant programs. He
stated that he did not review the performance and design of OJP’s past
offender reentry programs because the SCA legislation was so prescriptive.

      We recommend both BJA and OJJDP amend their 2009 SCA grant
program performance measures to include measures that require grantees
to report performance information similar to the pre-release and post-
release performance measures included in the SVORI and PRI grant
programs. These additional measures will allow OJP to assess whether
grantees need training and technical assistance and could allow OJP to
determine what aspects of a reentry program are most beneficial in the
design of future OJP reentry programs.




       45
           In October 2008, representatives from numerous groups, including the American
Jail Association, the American Correctional Association, the Center for Effective Public Policy,
the NIJ, the Urban Institute, and the Council of State Governments Justice Center, attended
a meeting at BJA in Washington, D.C., to plan for the implementation of the SCA grant
program and gather information for the solicitation.


                                            - 30 -
Target Population

       During our review of the grant material and solicitations for each of
the three reentry programs, we noted that OJP did not provide a clear
definition of the target population, which affected OJP’s ability to determine
the effectiveness of its reentry programs.

      The SVORI grant program, which began in FY 2002, focused on
“serious and violent offenders” who were considered to be the greatest
threat to public safety. According to OJP’s former Assistant Deputy Attorney
General, participating federal agencies agreed on a definition of “serious and
violent” that included crimes with firearms and those resulting in bodily
injury such as manslaughter or rape. The SVORI grant program did not
include offenders who had committed non-violent crimes.

       However, OJP’s FY 2002 through 2004 SVORI grant solicitations did
not specify the types of crimes that would meet the definition of a “serious
or violent offender.” The omission of a specific definition left the decision
regarding offender participation to the grantee, which led to inconsistent
offender participation among different SVORI grant programs, inconsistent
comparisons of individual grant programs, and difficulties in measuring
program effectiveness.

       OJP’s PRI grant solicitation in FY 2006 included a specific definition of
the grant program’s target population: adult non-violent offenders. The
solicitation excluded all violent and sex-related offenders from participating
in the program. However, the solicitation included a provision that allowed
grantees to request a waiver from OJP to include adult violent offenders in
their target populations if the grantees could not obtain a sufficient pool of
non-violent offenders. We believe that, compared to the FY 2002 SVORI
grant solicitation, OJP made significant improvements to the FY 2006 PRI
grant program by providing a more specific definition of the FY 2006 PRI
target population.

       However, OJP’s PRI grant solicitation for FY 2007 had a different
definition of the target population. In the FY 2007 PRI solicitation, only
juvenile offenders were excluded from participating in the PRI grant
program. In addition, OJP officials continued to exclude sex-related
offenders and allowed grantees to request a waiver from OJP to include
violent offenders. When we asked OJP officials about the omission of these
requirements, they acknowledged the inaccuracy of the solicitation and had
no explanation for it.



                                      - 31 -
       In the FY 2008 PRI grant solicitation, the target population excluded
juvenile and sex-related offenders, which meant that both violent and non-
violent adult offenders were allowed to participate. OJP made this change to
allow grantees the flexibility of choosing the type of offenders they wanted
to include in the target population.

      Allowing grantees to decide how to define their target populations
continued in the FYs 2009 and 2010 SCA grant program. We do not have
concerns with OJP’s decision to design its reentry programs to allow
grantees to decide which offenders are eligible to participate in a particular
grant program. However, we are concerned that OJP attempted to define
the target population with descriptions that were not adequately defined,
such as in the FY 2002 SVORI, and inaccurate solicitations that provided
incorrect guidance to potential grantees, such as in the FY 2007 PRI.
However, these deficiencies were corrected in OJP’s SCA grants for FYs 2009
and 2010.

Effectiveness of OJP’s Reentry Grant Programs

      A potential measure of the effectiveness of reentry programs is
the recidivism rate. However, OJP officials could not provide specific
data on recidivism rates, and stated that they were awaiting the
results of a national evaluation.

      We found that based on OJP’s design of its reentry grant
programs, the effectiveness of the reentry grant programs could not
be determined. In addition, based on detailed testing at grant sites,
we found that several programs were not successful, and much of the
data that could demonstrate the level of effectiveness of individual
reentry programs was unsupported.

      Additionally, when completed, OJP’s independent national
evaluation of the SVORI grant program identified no significant impact
on recidivism.

Offender Reentry Grant Reviews

      To assess the effectiveness of the SVORI and PRI offender reentry
grant programs, we selected a judgmental sample of the grants awarded for
each program and conducted site visits to review available documentation.




                                    - 32 -
Overall, we reviewed 10 SVORI and 10 PRI grantees. 46 The results of these
reviews are described below.

      Serious and Violent Offender Reentry Initiative

      Our review of 10 SVORI grants found that 6 of the 10 grantees
generally provided services specified in the grant application by establishing
reentry grant programs and providing employment, housing, and substance
abuse services to offenders. For the two offender reentry programs in the
City of Oakland, California, and the State Washington, we were unable to
determine whether services were provided. In each instance, the participant
case files were either incomplete or missing and, as a result, we were unable
to determine whether the participants were eligible or received services.

       In New York, the Office of Child and Family Services’ (OCFS) Office of
Strategic Planning and Program Development conducted two internal reviews
of the SVORI grant program. The first review, completed in March 2005,
identified several deficiencies that made it impossible to determine if
program requirements were implemented and program goals were met. The
deficiencies identified included inadequate documentation of program
activities, participant accomplishments, and required forms that were not
included in participant case files. In addition, program staff did not receive
training necessary to perform their duties. The second program review,
conducted in March 2006 to assess the progress made since the original
review, stated that it “did not find much evidence of changes or follow
through on recommendations.”

      In addition, eight grantees did not maintain supporting documentation
for required performance measures as required by the OJP Financial Guide. 47
Without this documentation, we were unable to verify the accuracy of the
performance measurement data that the SVORI grantees submitted to OJP.
Consequently, we could not evaluate the recidivism of the participants.




      46
          The 10 SVORI grants that we included in our review were comprised of 6 grant
audits performed concurrent with this audit and 4 grants that the OIG had previously
audited.
      47
          We reviewed performance measurement data for eight of the SVORI grants. The
other two grants were previously audited using a program that did not include a review of
performance measurement data


                                         - 33 -
       Prisoner Reentry Initiative

      We judgmentally selected 10 PRI grants and focused our review on
performance measurement data. 48 We found that the PRI grantees
established reentry programs in which eligible participants received the
services specified in the grant applications. The grantees generally rendered
services in accordance with the program’s stated goals and objectives. In
addition, we verified that the target populations were generally served.

      Five of the 10 PRI grantees we reviewed supported their required
performance measurement data. Required performance measure
documentation was not maintained for four PRI grantees. The remaining
PRI grantee program had not progressed to the point where performance
was measurable.

      Two PRI grantees recommended that OJP improve training and provide
more technical assistance to the grantees. These grantees stated that the
required OJP performance measures were ambiguous and confusing. One
grantee stated that OJP was not responsive to its request for assistance
interpreting the performance measures, and gave OJP poor ratings for
assistance and training.

Offender Reentry Program Evaluations

       SVORI local evaluations were not included as a requirement in grant
solicitation and subsequent awards. However, 7 out of the 10 SVORI grant
programs audited by the OIG underwent voluntary local evaluations that
were paid for by the grantees. Only four out of the seven local evaluations
contained information on program recidivism. 49 These evaluations were
typically conducted by the state government or a university.

      In addition, in FYs 2003 and 2004 OJP awarded 2 grants to RTI
International (RTI) to conduct a national evaluation of the 69 SVORI
grantees and assess the effectiveness of the SVORI grant programs. 50 The
SVORI grantees agreed to participate in the national evaluation as a
prerequisite to receiving the SVORI grant awards. Neither the PRI nor the

       48
           See Appendix I for a list of the 10 judgmentally selected PRI grants reviewed.
       49
           In addition to the four local evaluations we reviewed, the Washington Department
of Corrections (WDOC) underwent a local evaluation, but the final results will not be
available until 2011. The WDOC was also included in the RTI International (RTI) national
evaluation.
       50
        Although all 69 grantees were preliminarily measured by RTI evaluators, the RTI’s
comprehensive national evaluation efforts only included 14 grantees.

                                          - 34 -
SCA grantees participated in the national evaluation, and the grantees were
not required to fund their own program evaluations.

       Local SVORI Program Evaluations

      We reviewed four local SVORI evaluations that contained information
regarding the programs’ impacts on recidivism. Exhibit 7 summarizes the
reported recidivism outcomes of these four local evaluations.

                         EXHIBIT 7
    SVORI PROGRAM LOCAL EVALUATION RECIDIVISM OUTCOMES
                         Population             Sample Size*               Recidivism
      Grantee              Served                                           Outcomes
City of Oakland,     Adult and juvenile   60 SVORI                   Lower recidivism rates
California           offenders.           participants               achieved. 51
                                          evaluated out of 94
                                          program participants.
Nebraska             Adult offenders      19 SVORI                 Lower recidivism rates
Department of        only.                participants; 53 non-    achieved.
Corrections                               SVORI participants as
                                          matched control
                                          group.
Texas Department     Adult offenders in   98 SVORI                 No statistically significant
of Criminal Justice  administrative       participants             impact on re-arrest or
                     segregation only.    evaluated out of 203     return to prison rates
                                          program participants. found.
Delaware Health      Adult offenders      303 admitted             Lower recidivism rates
and Human            only.                program participants     for those who completed
Services                                  evaluated of which       the program
                                          96 completed the         (65.5 percent) versus
                                          SVORI program while those who did not
                                          207 did not complete complete the program
                                          the program.             (82 percent).
* Small sample sizes may not be representative of an overall population and therefore limits
evaluation conclusions.
Source: OIG

       The results of the local grant program evaluations indicate that the
SVORI grant program has had a positive effect on recidivism. However, we
do not believe that the results can be used to accurately determine the
effect the SVORI grant programs have had on recidivism because the small

       51
           While the external evaluation stated that lower recidivism rates were achieved
through the City of Oakland, California’s Project Choice SVORI grant program, a prior OIG
audit concluded that the grantee could not provide sufficient support to confirm who
participated in the program, which raises some concern about the accuracy of the
evaluation’s conclusions. See U.S. Department of Justice Office of the Inspector General,
Serious and Violent Offender Reentry Initiative Grant Awarded to the City of Oakland,
California, Audit Report GR-90-08-004 (September 2008).

                                           - 35 -
sample sizes used in three of the evaluations were not representative of the
local SVORI participant populations. For instance, the City of Oakland
evaluation stated that the sample was so small that it was impossible to
draw conclusions that could be confidently extrapolated to a larger
population. In addition, the Texas sample was small and evaluators stated
that small samples require a fairly substantive change for the impact of
treatment to be detected. Texas evaluators found that the SVORI program
resulted in no statistically significant impact.

      In another example, the evaluators concluded that the State of
Nebraska’s SVORI grant program reduced recidivism because 4 out of 19
(21 percent) SVORI grant program participants and 14 out of 53
(26 percent) non-SVORI grant program participants had a new arrest during
the 6-month follow-up period. As a result, the State of Nebraska’s SVORI
grant evaluators supported the expansion of the SVORI grant program.
However, we believe the value of the conclusions is greatly diminished
because of the small sample sizes, with a small difference between the
recidivism rates and the short measurement period.

      The fourth local evaluation was of the Delaware Health and Human
Services (Delaware HHS) SVORI grant program. The evaluators of the
Delaware HHS SVORI grant program concluded that lower recidivism rates
were realized when program participants completed the program. However,
the Delaware HHS SVORI grant program evaluators did not conclude that
the success was a result of the SVORI program, stating that participants
completing the program “may have been more motivated to shed their
criminal behavior” and that “some and maybe many would have been
successful even without SVORI . . . .”

      Moreover, it is difficult to compare the results of offender reentry
programs with widely varying offender populations. As shown in Exhibit 7,
one of the programs focused on both juvenile and adult offenders, two
programs focused on adult offenders in the general population, and one
program focused on adult offenders in the administratively segregated
population. 52 These different programs encounter inherently different
challenges due to the participant age and environmental differences which
make comparisons difficult.



       52
          Administratively segregated prisoners are isolated due to a perceived risk of
violence, membership in disruptive gangs, or a history of escape. These offenders are
normally not eligible for programs and services that are offered to offenders in the general
population.


                                           - 36 -
          RTI International’s National SVORI Evaluation

       OJP’s National Institute of Justice (NIJ) awarded two grants in
May 2003 and June 2004, totaling $12 million, to RTI International (RTI) and
its subcontractor, the Urban Institute, for a comprehensive study on the
SVORI grant program. 53 The RTI’s study consisted of a 1-year design and
implementation phase and a 4-year impact study. The RTI conducted a
multi-site effort that included an implementation assessment, an impact
evaluation, and a cost-benefit evaluation. 54 OJP officials stated that OJP is
relying primarily on this independent national evaluation to assess the
effectiveness of the SVORI grant program.

      Eighty-nine SVORI programs in 69 sites were included in the
implementation evaluation. RTI performed the planned tasks and
accomplished the established goals for phase one and released a 245-page
report in July 2004, entitled A National Portrait of SVORI, based on reviews
of grantee proposals and work plans, telephone interviews with program
directors, and visits to selected sites.

      During the second phase, the RTI evaluated 16 SVORI programs at 14
selected sites to assess the effectiveness of the overall SVORI grant
program. The 16 programs consisted of 12 adult programs and 4 juvenile
programs. 55 The impact evaluation involved a series of in-person interviews
of SVORI participants and non-SVORI participants before they were released
from prison and at periodic intervals after their release from prison.

      RTI and the Urban Institute produced a series of topical reports and
made presentations to congressional lawmakers, executive branch policy-
makers, and fellow researchers. A complete final research product
presenting the overall results of the evaluation was supposed to be
submitted to the NIJ during the last year of the project in 2008. However,
RTI produced six reports showing the results of the project because the
audiences for these reports were different.




          53
           The first grant was awarded in May 2003 for approximately $1.9 million. The
second grant followed in June 2004 for approximately $10.1 million. RTI worked in
collaboration with its subcontractor, Urban Institute, to perform the evaluation.
       54
           The implementation assessment documented the types of programs administered
by SVORI grantees, the impact evaluation assessed the effectiveness of the program, and
the cost-benefit evaluation determined whether program benefits exceeded program costs.
          55
               The 14 sites selected for the evaluation are shown in Appendix II of this audit
report.

                                                - 37 -
      After three extensions, the RTI submitted six draft reports to the NIJ in
June and July 2009. The NIJ received the final reports in December 2009.

      RTI’s Report Results

      The NIJ provided us with the RTI’s final reports, which are described in
Exhibit 8.




                                    - 38 -
                              EXHIBIT 8
                     SUMMARY OF RTI’S FINAL REPORTS
                Report Title                                   Results Summary
 The Multi-site Evaluation of SVORI:                 Describes the methods and analytic
 Methodology and Analytic Approach                   approach used to conduct the
                                                     evaluation.
 Final report submitted December 2009
 Prisoner Reentry Experiences of Adult               According to official corrections data,
 Females: Characteristics, Service                   women who participated in SVORI had
 Receipt, and Outcomes of Participants in            significantly higher reincarceration rates.
 the SVORI Multi-site Evaluation

 Final report submitted December 2009
 Reentry Experiences of Confined                     RTI reported that SVORI failed to
 Juvenile Offenders: Characteristics,                generate differences between juvenile
 Service Receipt, and Outcomes of                    males in the SVORI program and their
 Juvenile Male Participants in the SVORI             non-SVORI counterparts.
 Multi-site Evaluation

 Final report submitted December 2009
 Prison Reentry Experiences of Adult                 According to official data obtained from
 Males: Characteristics, Service Receipt,            state Departments of Corrections,
 and Outcomes of Participants in the                 reincarceration rates for both groups
 SVORI Multi-Site Evaluation                         were high with about 40% of the SVORI
                                                     participants and the non-SVORI
 Final report submitted December 2009                population reincarcerated within 24
                                                     months of release. Although members
                                                     of the SVORI group were less likely to
                                                     have an officially recorded arrest
                                                     obtained from the National Crime
                                                     Information Center (NCIC) during the 24
                                                     months following release, the
                                                     differences were not statistically
                                                     significant.
 An Economic Evaluation of the Serious               There was no evidence of any cost
 and Violent Offender Reentry Initiative             benefit for SVORI participation.

 Final report submitted December 2009
 Multi-site Evaluation of SVORI:                     Summarizes the overall content and
 Executive Summary and Synthesis                     findings of the preceding six reports.

 Final report submitted December 2009

      The final RTI reports found that although SVORI program participation
increased the likelihood that participants would receive a wide range of
services, the SVORI program did not have a significant impact on recidivism.
Among adult males, the SVORI and non-SVORI groups were equally likely to
be reincarcerated throughout the 24-month follow-up period. Although
members of the SVORI group were less likely to be rearrested during the
24 months after release than the non-SVORI group, the differences were not

                                            - 39 -
statistically significant, and rearrest rates for both groups were about
70 percent, with at least one rearrest within 24 months of release. The RTI
found that the SVORI and non-SVORI groups were equally likely to be
reincarcerated within 3, 6, and 9 months of release, but that the SVORI
participants were significantly more likely to be reincarcerated within 12, 15,
21, and 24 months of release. For juvenile males, members of the SVORI
group were more likely to be incarcerated at the time of the 9- and 15-
month post-release interviews, although the differences were not statistically
significant.

      American University’s Evaluation of DOJ’s 2006 PRI Grant Program

      OJP, through its training and technical assistance contractor American
University, performed one PRI grant evaluation for the 2006 PRI grant
program. In May of 2009, American University published its report
summarizing the results of an assessment conducted on the implementation
experience of 20 PRI grantees who received FY 2006 PRI grants. 56 The
purpose of the assessment was to provide a synopsis of the PRI grant
program participants’ experience, focusing on: (1) the degree to which PRI
grantees were able to achieve initiative goals; (2) the nature of pre-release
services provided; and (3) issues that emerged relating to internal agency
operations and coordination with the DOL faith based community
organizations providing post-release services. The assessment found:

      •    a lack of coordination and communication between the DOJ and the
           DOL, which created a lack of follow through by the OJP grantees
           with the services offered by the DOL partner;

      •    a lack of information sharing, which prevented the development of
           performance data that could have depicted the impact of the
           initiative; and

      •    the DOJ grantees providing pre-release services experienced
           difficulty coordinating with the DOL grantees providing post-release
           services because the two federal agencies’ programs were
           developed separately and lacked overarching communication and
           organization necessary to facilitate program implementation.




      56
           American University, Assessment of the Implementation Experience and Status of
FY2006 BJA PRI Program Grantees (May 2009). This assessment was not awarded through
a competitive bid. American University conducted this assessment as a part of their work
as OJP’s training and technical assistance contractor.

                                         - 40 -
       American University was unable to conclude whether the services
provided by the OJP grantees resulted in reducing recidivism because there
was no mechanism established for systemic follow up of inmates
participating in the program after they were released. American University
stated that the PRI grant program established a framework to start
connecting individuals who were leaving correctional institutions with
employment opportunities, and the PRI grant program did help create the
necessary support systems for them to be successful.

     Second Chance Act Program Evaluations

       The SCA legislation does not require the BJA to fund an evaluation of
the SCA grant programs. However, the SCA legislation states that priority
will be given to grant applications that “provide for an independent
evaluation.” The SCA legislation further states that a condition of receiving
financial assistance is that each applicant shall develop a comprehensive
strategic reentry plan, which should contain measurable annual and 5-year
performance outcomes and, to the extent possible, use randomly assigned
and controlled studies to determine the effectiveness of the funded program.

      OJP did not use FY 2009 SCA funds for an evaluation of the SCA grant
programs. BJA employees working with the SCA grant program stated that
they anticipated the BJA would use $1 to 2 million of the FY 2010 SCA
funding for an NIJ evaluation to determine the effectiveness of the SCA
grant programs.

     As of January 2010 OJP had not provided funding for an SCA grant
program evaluation to determine its effectiveness.

Recommendations

  We recommend that OJP:

  5. Develop a consistent and detailed definition of recidivism and ensure it
     is disseminated to all grantees.

  6. Require grantees in offender reentry programs to provide baseline
     recidivism rates to facilitate an accurate measurement of the
     programs’ impact on recidivism.

  7. Develop a process for analyzing grantees’ performance measurement
     data to determine if program goals are being met, including whether
     recidivism has decreased.


                                   - 41 -
 8. Add pre- and post-release performance measures that were included
    in the SVORI and PRI grant programs to SCA.

 9. Conduct a review of past offender reentry programs to identify best
    practices, lessons learned, and problems to be avoided when
    developing and implementing new reentry programs.

10. Ensure that the target population descriptions in future grant
    solicitation material include detailed and precise definitions.

11. Consider arranging for an evaluation of the SCA reentry programs.




                                   - 42 -
                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS

       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OJP’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. OJP’s management is responsible for ensuring compliance with
federal laws and regulations applicable to the OJP. In planning our audit, we
identified the following laws, regulations, and requirements that concerned
the operations of the auditee and that were significant within the context of
the audit objectives:

     •    Continuing Appropriations for Commerce, Justice, State, and the
          Judiciary, Pub. L. No. 106-553 (2001);
     •    Commerce/Justice/Science Appropriations Act, Pub. L. No. 107-77
          (2002);
     •    21st Century Department of Justice Appropriations Authorization
          Act, Pub. L. No. 107-273 (2002);
     •    Division B, Title I of the Consolidated Appropriations Act, Pub. L.
          No. 108-7 (2003);
     •    Division B, Title I of the Consolidated Appropriations Act, Pub. L.
          No. 108-199 (2004);
     •    Division B, Title I of the Consolidated Appropriations Act, Pub. L.
          No. 108-447 (2005);
     •    Science, State, Justice, Commerce, and Related Agencies
          Appropriations Act, Pub. L. No. 109-108 (2006);
     •    Fourth (Year-Long) Continuing Appropriations Resolution, Pub. L.
          No. 110-5 (2007);
     •    Division B, Title II of the Consolidated Appropriations Act, Pub. L.
          No. 110-161 (2008);
     •    Second Chance Act of 2007, Pub. L. No. 110-199 (2008);
     •    Division B, Title II of the Omnibus Appropriations Act, Pub. L.
          No. 111-8 (2009); and
     •    Division B of the Consolidated Appropriations Act, Pub. L. No.
          111-117 (2010).



                                    - 43 -
      Our audit included examining, on a test basis, OJP’s compliance with
the aforementioned laws, regulations, and requirements that could have a
material effect on OJP’s operations, through interviewing auditee personnel
and grantee officials, examining procedural practices, analyzing data, and
assessing internal control procedures. Nothing came to our attention that
caused us to believe that OJP was not in compliance with the
aforementioned laws and regulations.




                                   - 44 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of OJP’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. OJP’s management is responsible for the establishment and
maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in OJP’s
internal controls that are significant within the context of the audit objectives
and based upon the audit work performed that we believe would affect OJP’s
ability to effectively and efficiently operate, to correctly state financial and
performance information, and to ensure compliance with laws, regulations,
and other applicable requirements.

       Because we are not expressing an opinion on OJP’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record




                                     - 45 -
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY


Objective

    The objective of this audit was to examine OJP’s design and
management of its offender reentry initiatives.

Scope and Methodology Section

      We conducted this performance audit in accordance with Government
Auditing Standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

        Our audit scope generally encompassed OJP’s offender reentry
initiatives from July 2002, the development of the SVORI grant program
through January 2010, and the status of the SCA offender reentry grant
program.

       To accomplish our objectives, we conducted work at OJP’s office in
Washington, D.C., including interviews with various officials and staff within
the Bureau of Justice Assistance, the Office of Juvenile Justice and
Delinquency Prevention, Community Oriented Policing Services, and the
Office of Audit, Assessment and Management. We also interviewed
Department of Labor officials because of their collaboration with OJP on
offender reentry programs. We obtained and reviewed budgetary
information from OJP’s Office of the Chief Financial Officer. We attended the
President’s Prisoner Reentry Initiative FY 2008/Generation 3 Grantee
Orientation Workshop to obtain programmatic, training and technical
assistance information in May 2009. We identified and reviewed current and
historical internal policies and manuals pertaining to the grant monitoring
process, including OJP’s Grant Manager’s Manuals and other applicable DOJ
directives and orders, correspondence, and public laws and related
legislative history pertaining to OJP’s offender reentry initiatives. We also
reviewed peer review scores when available; grant applications; award files;
and applicable correspondence among OJP staff. Further, we analyzed
results from 10 external audits of SVORI grant programs and 10 external
reviews of PRI grant programs for any commonality among the findings.




                                    - 46 -
Related OIG Grant Audits and Reviews

      We reviewed 10 OIG SVORI grant audits that were issued from
January 2005 through November 2009. The 10 SVORI grants in our review
included 9 full-scope grant audits and 1 limited scope review of the District
of Columbia Justice Grant Administration’s SVORI grant program. Of the
nine full-scope grant audits, four were completed before the start of this
audit: Michigan Department of Corrections; City of Oakland, California;
Washington Department of Corrections; and Colorado Department of
Corrections. Two of the SVORI grant audits, the Michigan Department of
Corrections and the Colorado Department of Corrections, were conducted
before the start of this audit and used an audit program that did not include
a review of performance measurement data. Therefore, we did not include
results concerning goals and accomplishments pertaining to Michigan and
Colorado. The OIG’s limited review of the District of Columbia included the
following areas: expenditures, progress reports, goals and
accomplishments, and monitoring of sub-contractors and sub-recipients. For
the remaining seven grantees, we tested the accounting records to
determine if reimbursements claimed for costs under the awards were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and the terms and conditions of the grants.

      For the OIG audit work conducted concurrently with this audit, a
combination of BJA and OJJDP grants representative of the SVORI grant
population was selected. Twenty-two OJJDP grants made up 32 percent of
the grant universe, while 47 BJA grants made up 68 percent of the grant
universe. The OIG audited two OJJDP grants, or 33 percent of the overall
grant universe, and four BJA grants, or 67 percent of the overall grant
universe. The table below shows the percentages of the BJA and OJJDP
selected grants out of the total SVORI audit universe versus the total BJA
and OJJDP grants out of the total SVORI grant universe.

       OIG SVORI AUDITS COMPARED TO THE TOTAL SVORI GRANT
                          UNIVERSE
Program     Concurrent OIG                    Total SVORI
 Office      SVORI Audits       Percent     Grants Awarded       Percent
OJJDP             2               33               22              32
BJA               4               67               47              68
Total             6               100              69              100

      In addition to selecting a representative balance of BJA and OJJDP
grants, the OIG assigned weights to each grant based on whether the
federal share was above or below $1 million, the grant was open or closed,
there were funds de-obligated or not, the average violent crime rate for the
corresponding state exceeded the national average, and other criteria
                                   - 47 -
deemed pertinent from OJP interviews conducted. OIG audits were
conducted on the grants that generally received the highest weighted scores.
The SVORI grant audits conducted by the OIG are listed in Appendix III.

       In addition, we examined 10 OIG reviews of PRI grant programs
conducted concurrently with this audit. These 10 OIG PRI grant program
reviews were conducted on 7 PRI grantees, with 3 grantees receiving PRI
grant awards in more than 1 year of the PRI grant program. The total PRI
grant program universe consists of 63 PRI grants, with 20 (32 percent)
awarded in FY 2006, 23 (37 percent) awarded in FY 2007, and 20
(31 percent) awarded in FY 2008. The FY 2008 PRI grant programs have
only recently begun, therefore the OIG selected fewer FY 2008 PRI grant
programs to undergo review. In total, five PRI grants (50 percent) were
selected from FY 2006, three (30 percent) were selected from FY 2007, and
two (20 percent) were selected from FY 2008. The table below shows the
percentages of the selected PRI grants by fiscal year out of the total PRI
grant program review universe versus the total PRI grants awarded each
fiscal year out of the total PRI grant universe.

     OIG PRI REVIEWS COMPARED TO THE PRI GRANT UNIVERSE BY
                        FISCAL YEAR
 Fiscal    OIG PRI Grant                    Total PRI Grants
 Year     Program Reviews       Percent         Awarded           Percent
 2006            5                 50              20                32
 2007            3                 30              23                37
 2008            2                 20              20                31
 Total           10               100              63               100

       In addition, the OIG assigned weights to each grant based on whether
the federal share was above or below $1 million, the grant was open or
closed, there were funds de-obligated or not, the average violent crime rate
for the corresponding state exceeded the national average, and other criteria
deemed pertinent from OJP interviews conducted. Generally, our selected
assist work grants made up the higher weighted scores. The PRI grant
program reviews conducted by the OIG are listed below.




                                   - 48 -
            OIG REVIEWS OF 2006 PRI GRANT PROGRAMS
                                                   Grant Start    Date        Award
Award Number                Grantee                   Date       Closed      Amount
                       Washington State
2006-RE-CX-0005                                    04/01/2006     Open       $450,000
                  Department of Corrections
                    Illinois Department of
2006-RE-CX-0013                                    09/01/2006     Open       $450,000
                           Corrections
                     Texas Department of
2006-RE-CX-0014                                    09/01/2006     Open      $1,350,000
                        Criminal Justice
                  New York State Division of
2006-RE-CX-0021                                    06/01/2006     Open       $815,538
                   Criminal Justice Services
                    Florida Department of
2006-RE-CX-0022                                    01/01/2006     Open       $450,000
                          Corrections



            OIG REVIEWS OF 2007 PRI GRANT PROGRAMS
                                                      Grant       Date        Award
Award Number                  Grantee               Start Date   Closed      Amount
                  Colorado Division of Criminal
2007-RE-CX-0003                                     10/01/2007   Open       $450,000
                               Justice
                  District of Columbia – Justice
2007-RE-CX-0007                                     07/01/2007   Open       $450,000
                      Grants Administration
                      Florida Department of
2007-RE-CX-0024                                     09/01/2007   Open       $450,000
                            Corrections



            OIG REVIEWS OF 2008 PRI GRANT PROGRAMS
                                      Grant Start                         Grant End
Award Number           Grantee           Date          Award Amount         Date
                   New York State
                      Division of
2008-RE-CX-0002                        04/01/2008         $540,000          Open
                   Criminal Justice
                       Services
                  Colorado Division
2008-RE-CX-0016      of Criminal       09/01/2008         $540,000          Open
                        Justice

Grant File Sample Selection

       We judgmentally selected 24 SVORI grant program files for our SVORI
grant program file review. We reviewed these grant program files for
completeness and evidence of grant monitoring. Our 24 selected grant file
review included 10 grants for which the OIG conducted audit work. We then
selected a combination of BJA and OJJDP audits that are representative of
the SVORI grant universe. Twenty-two OJJDP grants made up 32 percent of
the universe population, while 47 BJA grants made up 68 percent of the 69
total SVORI grant programs. Our judgmental sample for our case file review
included 9 OJJDP grants, or 37 percent of the case file review sample, and

                                        - 49 -
15 BJA grants, or 63 percent of the case file review sample. The table below
shows the percentages of the BJA and OJJDP grants selected for the grant
file review out of the total SVORI grant file review universe versus the total
BJA and OJJDP grants awarded out of the total SVORI grant universe.

      OIG SVORI GRANT FILE REVIEW UNIVERSE COMPARED TO THE
                 TOTAL SVORI GRANT UNIVERSE
               SVORI Grant                      Total SVORI
  Program      File Review                    Grants Awarded
    Office       Universe         Percent        Universe          Percent
OJJDP                9               37              22               32
BJA                 15               63              47               68
Total               24              100              69              100

      In addition to selecting a representative balance of BJA and OJJDP
grants, we assigned weights to each grant based on whether OIG audit work
had been conducted or was underway, the federal share was above or below
$1 million, the grant was open or closed, geographic distribution, there were
funds de-obligated or not, the average violent crime rate for the
corresponding state exceeded the national average, and other criteria
deemed pertinent from OJP interviews conducted. The grants selected for
the grant file review generally made up the highest weighted scores, but
also contained 14 grants with middle and low scores for a distributed sample
population. The 24 SVORI grants selected for our review are listed below.




                                    - 50 -
 SVORI BJA GRANTEES JUDGMENTAL GRANT FILE REVIEW SAMPLE
                                     Grant Start
Award Number           Grantee          Date       Award Amount   Date Closed
                        Illinois
2002-RE-CX-0001    Department of      07/01/02      $2,365,461     06/30/09
                     Corrections
                       Virginia
2002-RE-CX-0005    Department of      07/01/02      $2,396,647     05/15/08
                     Corrections
                  Delaware Health
2002-RE-CX-0008      and Human        07/01/02      $2,603,234     06/07/07
                       Services
                        Alaska
2002-RE-CX-0014    Department of      07/01/02      $1,497,574     05/28/08
                     Corrections
2002-RE-CX-0015     Virgin Islands    07/01/02      $1,035,000     01/24/08
                       Colorado
2002-RE-CX-0018    Department of      07/01/02      $2,163,367     09/04/08
                     Corrections
                    State of New
2002-RE-CX-0025                       07/01/02      $2,173,334       Open
                     Hampshire
                    State of New
2002-RE-CX-0030                       07/01/02      $2,219,528     04/22/08
                        Mexico
2002-RE-CX-0032    State of Hawaii    07/01/02      $2,429,979     12/18/08
                       Michigan
2002-RE-CX-0033    Department of      07/01/02      $1,052,000     01/13/09
                     Corrections
                     Washington
                         State
2002-RE-CX-0042                       07/01/02      $2,145,962     11/19/07
                   Department of
                     Corrections
2002-RE-CX-0055   City of Oakland     07/01/02      $1,052,000     06/11/07
                        Texas
2002-RE-CX-0064    Department of      07/01/02      $2,124,599     08/05/08
                  Criminal Justice
                      District of
                  Columbia Justice
2002-RE-CX-0066                       07/01/02      $2,086,722     12/31/06
                        Grants
                   Administration
                      Nebraska
                   Department of
2003-RE-CX-0001                       07/01/02      $2,386,908     09/09/08
                     Correctional
                       Services




                                      - 51 -
 SVORI OJJDP GRANTEE JUDGMENTAL GRANT FILE REVIEW SAMPLE
                                        Grant Start
Award Number           Grantee             Date       Award Amount   Date Closed
                        Indiana
2002-RE-CX-0002     Department of        07/01/02      $2,387,000     04/29/08
                      Corrections
                    South Carolina
2002-RE-CX-0012     Department of        07/01/02      $1,051,980     01/17/08
                   Juvenile Justice
                         Idaho
                    Department of
2002-RE-CX-0013                          07/01/02      $2,087,000     05/04/07
                        Juvenile
                      Corrections
                   New York State
                  Office of Children
2002-RE-CX-0028                          07/01/02      $1,237,504     05/25/07
                      and Family
                        Services
                   Oklahoma Office
2002-RE-CX-0044                          07/01/02      $1,049,050     04/17/07
                  of Juvenile Affairs
                        Missouri
2002-RE-CX-0045     Department of        07/01/02       $873,750      04/20/08
                    Social Services
                  Utah Department
2002-RE-CX-0049        of Human          07/01/02      $1,080,100     01/05/08
                        Services
                        Nevada
                    Department of
                        Human
                      Resources-
2002-RE-CX-0050                          07/01/02       $708,994       09/8/09
                   Division of Child
                        Human
                      Resources-
                   Division of Child
                       Wisconsin
2002-RE-CX-0060     Department of        07/01/02      $2,344,847     06/04/07
                      Corrections

       We judgmentally selected 23 PRI grant files for our PRI grant program
file review. We reviewed the selected grant program files for completeness
and evidence of monitoring. Our 23 selected grant files included 10 grants
for which the OIG performed reviews. OIG auditors did not conduct full
grant audits, but instead performed supplemental audit steps to evaluate
performance measures only for the PRI grant program. All PRI grants were
administered by BJA.

     Sixty-three total PRI program grants were awarded from FYs 2006
through 2008. The 63 total PRI grant award consisted of 20 awards in
FY 2006 or 32 percent of the grant universe, 23 awards in FY 2007 or
37 percent of the grant universe, and 20 awards in FY 2008 or 31 percent.

                                        - 52 -
We judgmentally selected nine grants from FY 2006 (39 percent), eight from
FY 2007 (35 percent), and six from FY 2008 (26 percent). The table below
shows the percentages of PRI grant files selected for our review by fiscal
year versus the total PRI grants awarded by fiscal year out of the total PRI
grant universe.

        OIG PRI GRANT FILE REVIEW UNIVERSE COMPARED TO THE
                   TOTAL PRI GRANT UNIVERSE
                 Case file
                 Universe                      Total Universe
 Fiscal Year     Selected        Percent         Population       Percent
    2006             9              39               20              32
    2007             8              35               23              37
    2008             6              26               20              31
    Total           23             100               63             100

      In addition, the OIG assigned weights to each grant based on whether
OIG audit work had been conducted or a review was underway, the federal
share was above or below $1 million, the grant was open or closed, there
were funds de-obligated or not, the average violent crime rate for the
corresponding state exceeded the national average, geographic distribution,
and other criteria deemed pertinent from OJP interviews conducted. The PRI
grants selected for the PRI grant file review generally made up the highest
weighted scores, but also contained 12 grants with distributed scores to
make up a diverse sample population. The PRI grants selected for our PRI
grant file review are listed below.




                                   - 53 -
   2006 PRI GRANTEE JUDGMENTAL GRANT FILE REVIEW SAMPLE
                                                   Grant Start    Date        Award
Award Number                Grantee                   Date       Closed      Amount
                   Michigan Department of
2006-RE-CX-0003                                    06/01/2006    09/25/09   $450,000
                          Corrections
                       Washington State
2006-RE-CX-0005                                    04/01/2006     Open      $450,000
                  Department of Corrections
                    Illinois Department of
2006-RE-CX-0013                                    09/01/2006     Open      $450,000
                           Corrections
                    Texas Department of
2006-RE-CX-0014                                    09/01/2006     Open      $1,350,000
                        Criminal Justice
                  Pennsylvania Department
2006-RE-CX-0017                                    10/01/2006     Open      $449,000
                       of Corrections
2006-RE-CX-0020       State of Colorado            10/01/2006     Open      $449,704
                  New York State Division of
2006-RE-CX-0021                                    06/01/2006     Open      $815,538
                   Criminal Justice Services
                    Florida Department of
2006-RE-CX-0022                                    01/01/2006     Open      $450,000
                          Corrections
                  Youth & Adult Correctional
2006-RE-CX-0024                                    07/01/2006     Open      $1,800,000
                      Agency, California



   2007 PRI GRANTEE JUDGMENTAL GRANT FILE REVIEW SAMPLE
                                                      Grant       Date       Award
Award Number                  Grantee               Start Date   Closed     Amount
                  Colorado Division of Criminal
2007-RE-CX-0003                                     10/01/2007    Open      $450,000
                               Justice
                  District of Columbia – Justice
2007-RE-CX-0007                                     07/01/2007    Open      $450,000
                      Grants Administration
                    Michigan Department of
2007-RE-CX-0008                                     10/01/2007    Open      $450,000
                            Corrections
                  Pennsylvania Department of
2007-RE-CX-0010                                     10/01/2007    Open      $427,439
                            Corrections
                        State of California
2007-RE-CX-0011       Community Service &           07/01/2007    Open      $450,000
                           Development
                     Nevada Department of
2007-RE-CX-0012                                     07/01/2007    Open      $450,000
                            Corrections
                     Kansas Department of
2007-RE-CX-0021                                     09/01/2007    Open      $450,000
                            Corrections
                      Florida Department of
2007-RE-CX-0024                                     09/01/2007    Open      $450,000
                            Corrections




                                        - 54 -
   2008 PRI GRANTEE JUDGMENTAL GRANT FILE REVIEW SAMPLE
                                      Grant Start                  Grant End
Award Number           Grantee           Date       Award Amount     Date
                   New York State
                      Division of
2008-RE-CX-0002                       04/01/2008      $540,000       Open
                   Criminal Justice
                       Services
                       Michigan
2008-RE-CX-0005    Department of      08/01/2008      $540,000       Open
                     Corrections
                      California
                   Department of
2008-RE-CX-0012                       04/01/2008      $540,000
                   Corrections and                                   Open
                    Rehabilitation
                  Colorado Division
2008-RE-CX-0016      of Criminal      09/01/2008      $540,000       Open
                        Justice
                    Pennsylvania
2008-RE-CX-0018    Department of      09/01/2008      $539,971       Open
                     Corrections
                       Nevada
2008-RE-CX-0020    Department of      09/01/2008      $540,000       Open
                     Corrections

       We obtained what we believe to be necessary and sufficient
documentation to achieve our audit objectives. Throughout the audit, we
relied on computer-generated data to obtain necessary information about
grant proposals and awards from OJP’s Grants Management System.
Although we did not assess the reliability of such computer-derived
information, we do not believe our reliance on this data affects our findings
and recommendations.




                                       - 55 -
                                                                APPENDIX II

         SVORI GRANTEES INCLUDED IN RTI INTERNATIONAL’S
                    NATIONWIDE EVALUATION
                                            Focus of Impact
 State         Grantee Agency                 Evaluation       Award Amount
 CO      Colorado Department of                    Juveniles
                                                                $2,163,367
         Corrections
 FL      Florida Department of                     Juveniles
                                                                $1,404,441
         Juvenile Justice
 IN      Indiana Department of                      Adults
                                                                $2,387,000
         Corrections
 IA      Iowa Department of                         Adults
                                                                $2,087,000
         Corrections
         Kansas Department of                       Adults
                                                                $1,352,000
         Corrections
 KS
         Kansas Juvenile Justice                   Juveniles
                                                                $1,046,733
         Authority
 ME      Maine Department of                        Adults
         Corrections                                            $2,156,006

 MD      Maryland Department of                     Adults
         Public Safety and Correctional                         $2,384,563
         Services
 MO      Missouri Department of                     Adults
                                                                $1,468,852
         Corrections
 NV      Nevada Department of                       Adults
                                                                $1,867,282
         Corrections
 OH      Ohio Department of                         Adults
                                                                $2,549,517
         Rehabilitation and Corrections
 OK      Oklahoma Department of                     Adults
                                                                $1,090,305
         Corrections
 PA      Pennsylvania Department of                 Adults
                                                                $2,288,194
         Corrections
         South Carolina Department of               Adults
                                                                $1,052,002
         Corrections
 SC
         South Carolina Department of              Juveniles
                                                                $1,051,980
         Juvenile Justice
 WA      Washington State                           Adults
                                                                $2,145,962
         Department of Corrections
Source: RTI Impact Evaluation Reports




                                          - 56 -
           SVORI GRANTEES SELECTED FOR RTI INTERNATIONAL’S
                      COST-BENEFIT EVALUATION
                                            Focus of Cost-
  State        Grantee Agency             Benefit Evaluation   Award Amount
 IA       Iowa Department of                       Adults
          Corrections                                           $2,087,000

 OH       Ohio Department of                       Adults
          Rehabilitation and
                                                                $2,549,517
          Corrections

 PA       Pennsylvania Department of               Adults
          Corrections                                            2,288,194

          South Carolina Department of             Adults
                                                                $1,052,002
          Corrections
 SC
          South Carolina Department of            Juveniles
                                                                $1,051,980
          Juvenile Justice
Source: RTI Impact Evaluation Reports




                                         - 57 -
                                                                            APPENDIX III

     DOLLAR-RELATED FINDINGS RESULTING FROM SVORI GRANT
                           AUDITS
                                                              Questioned
                                                               Costs and             Percent
 Program               SVORI                   Award           Funds to             of Award
  Office              Grantee                 Amount          Better Use           Questioned
              Delaware Health and
    BJA                                       $2,603,234        $2,593,494           99.63
              Human Services
              City of Oakland,
    BJA                                       $1,052,000        $1,052,000           100.00
              California
              New York State Office
   OJJDP      of Children and Family          $1,237,504           $760,454          61.45
              Services
              Washington
    BJA       Department of                   $2,145,962           $359,432          16.75
              Corrections
              Colorado Department
    BJA                                       $2,163,367         $349,084 57         16.14
              of Corrections
              Michigan Department
    BJA                                       $1,052,000            $22,436           2.13
              of Corrections
              South Carolina
   OJJDP      Department of                   $1,051,980             $7,277           0.69
              Juvenile Justice
              Texas Department of
    BJA                                       $2,124,599             $7,077           0.33
              Criminal Justice
              District of Columbia
    BJA       Justice Grants                  $2,086,722                  $0          0.00
              Administration
              Nebraska Department
    BJA       of Correctional                 $2,386,908                  $0          0.00
              Services
                 Totals                    $17,904,276         $5,151,254           28.77%
Source: Data from OIG audit reports issued between January 2005 and October 2009




       57
          The dollar-related finding of $349,082 relating to the OIG grant audit of the
Colorado Department of Corrections included $134,362 in funds to better use and $214,722
in questioned costs.

                                            - 58 -
                                                                                         APPENDIX IV

               THE OFFICE OF JUSTICE PROGRAMS’
                RESPONSE TO THE DRAFT REPORT
                                                      u.s. llepJlrtlllcllt of Justice
                                                      Office of Justice Prog rams

                                                      ODicI' of Ihe AS.I'i.wwlI AI/oriley General




     JUN 21 2010
MEMORANDUM TO:                Glenn A. Fine
                              Inspector General
                              United States Department of Justice

THROUGH:                      Raymond J. Beaudet
                              Assistant Inspector General for Audit
                              Office of the Inspector General
                              Uni ted States Department of Justice

!'ROM :                       LauricO. Robinson      ~
                              Assistant Anorney Gcnera~

SUBJECT:                      Response to Office of the Inspector General's Draft Audit Report,
                              Office ofJuslice Programs ' Management of its Offender Reentry
                              Inilialives

This memorandum provides a response to Office of the Inspector General 's (OIG's) May 20,
20 I 0 druft audit report, entitled Office of Justice Progrom!' Management ofits Offender Reentry
Iniliatives. Overall, the Office of Justice Programs (OJP) agrees with the conclusions and the
recommendations detailed in the draft audit report.

The draft audit report contains II recommendations and no questioned costs. For case of rev iew,
the draft audit report reco mmendations are restated in bold and arc followed by OJP's response.

I.     We recommend that OJP ensure that reentry grantees implement and adhere to
       procedures lhut will result in the timely ~ llbmi~s ion of complete and accurate
       Federal Financial Reports and program progress reports.

       The Office of Justice Programs agrees wi th the recommendation. The Bureau of Justice
       Assistance (BJA), in collaboration with the Office of Juvenile Justice lind Delinquency
       Prevention (OJJDP), conducted a post-award management training workshop on May 26-
       27,2010, in Washington, DC, for all Second Chance Act (SeA) grantees. This workshop
       included infonnation on the importance of effective grant management, and included a
       session on complying with reporting requirements (see Attachment I).

       In addition. on April 82010, BJA conducted a webinar ("Post Award Grant
       Management") on post-award grant management for fiscal year (FY) 2009 SCA grantees,
       which llddressed granlee reporting requirements. The webinar may be accessed at




                                            - 59 ­
     http://www. na ti onlll recntryrcsourcecenter .org/2009-~ccond-chancc-aet -grantce-resourcc­
     Pi!ill:. Thc Officc of Justice Programs requests closure of this recommendation.

2.   We recommend that OJP require tha t reentry grantct:s monitor grant performance
     to cnsurc thcy ac hieve program goals and objectives.

     The Office of J ustice Programs agrees with the recommendation. In FY 2010, BJA and
     OJJDP developed performance measures for the SCA Programs and require SCA
     grantees to report on their progress in meeting program goals and objectives in their
     program progress reports (see Attachment 2, pages 7-10). By October 1,2010, BJA and
     OJJDP will devclo p internal procedures to enhance the compliance rate for the data
     collected in BJA 's Performance Measurement Tool (PMT). and in OJJDP's Data
     Collection Tool (DCTA T).

3.   We recommend that OJP enforce the Grant Manager's Manual requirement to
     perform and documcnt annual dcsk reviews.

     The Office of Justice Programs agrees with the recommendation. By July 1,2010, BlA
     and OJJDP will incorporate the completion and documt:ntution of dt:sk rev iews in grant
     managers' performance work plans.

4.   We recommend that OJP implement the Performance Measurement Tool a nd usc it
                          ..c
     to collcct and analy.. pcrformance measurcs data collected from the SeA grant
     programs.

     Thc Office of Justice Programs agrees with the n:commendation. BJA added the SeA
     Programs to the PM"!" in Jan uary 2010 to allow for the co11cction and analysis of grantee
     performance measures data. Beginning on July 1,2010, SeA grantees wi ll begin
     rcporting in PMT on the results of performance measures data co11ected for the quarter
     ending June 30, 2010.

     In April 2010, BJA conducted tbe following series ofwebinars, whic h may be accessed at
     hltp://www.nationulreenlryresourcecenter .orgl2009-second-clmnce-act -grantee-resourct:­
     page.

         •   Overview of Performance Measures and Data Collection
         •   Overview ofPerformanee Measures and Data Col lcction-Adu lt Mentoring
             Grantees
         •   Performance Measures for Second Chance Juvenile Reentry Grantccs

S.   We recommend that OJP develop a consistcnt and dctailed definition of recidivism
     and ensure it is disseminated to all grantees_

     The Office of Justice I)rograms agrees with the recommendation. In FY 2010, BJA and
     OJJDP issued ajoint solicitation for the SCA Programs, which included detaikd
     information and a definition of recidivism, for purposes of this initiative. Specifically,

                                              2




                                           - 60 ­
     recidivism was defined as a ret urn to prison, jai l and/or a juvenile detention or
     corre(;tional fa(;il ity, with either a new conviction or as the result of a violation of the
     tcrms of supervision, within 12 months of initial release (sec Attachment 2, page 1).

     BJA and OJJOP also discussed with SCA grantees the defi nition of recidivism at thc
     trai ning workshop hel d on May 26~27, 20 10, in Washington, DC, and through a series of
     webinars held in FY 2010. The link to the webinflrs can be found at
     http://www.nationalrecntrvresouT (;cccnteT.nrg/tra! Ili nglwcbcasts. The Office of Justice
     Programs requests elosure of this recommendation.

6.   We recommend tbat OJP require grantees in offender ree ntry programs to provide
     baseline recidivism {"".ltes to facilitate an accurate meas urement of the programs'
     impact on recidivism.

     The Office of Justice Programs agrees with the reeommt:ndation. BlA plans to work
     closely with its SCA grantees to ensure baseline recidivism data is collected to facilitate
     an accurate measurement of the SCA Programs' impact on recidivism within the target
     population. By December 31,2010, Bl A and OJJDP an ticipate developing basel ine
     recidivism rates for their respective SCA grantees.

7.   We recommend tbat O.JP develop a process for analYLing grantees' performa nce
     m ea~ urement data to determine if program goals arc being met, including wbetber
     recidivism bas decreased.

     The Office of Justice Programs agrees with the recommendation. By September 30,
     2010, BlA and OlJDP will work with Consulting Services and Research, Inc. and the
     National Reentry Resource Center (NRRC) to develop guidelines for analyzing SCA
     grantees' perfonnance data to detennine ifSCA Programs goals arc being met, including
     whether recidivism has decreased. In addition, by December 31 ,2010, OJJOP wilt
     publish an Ulilluul report for its SCA grantees which summari7.es whether acti vities and
     accomplisluncnts arc consistent with program goals.

8,   We recommend tbat OJP add pre- and post~rclea se pcrformanee mea.~ ure5 that
     were included in the SVORI and PRJ grant programs to SeA.

     The Office of Justice Programs agrees with the reeonunendation. Tn FY 2010, BJA
     established pre- and post-release perfommnce measures in the joint SCA solicitation
     issued with Oll DP, similar to measures in the Serious and Violent Offender Reentry
     Initiative (SVORI) and Prisoner Reentry Initiative (PRI) grant programs
     (see Auaclunent 2, pages 7~1O). By December 31, 2010, OJJDP will explore adding pre·
     and post-release performance measures to solicitations develo ped and issued in FY 20 II.




                                                 3




                                            - 61 ­
9.    We recommend that 0,11' conduct a review of past offender reentry programs to
      identify best practices, lessons learned, and problems to be avoided when developing
      and implementing new reentry programs.

      Thc Ofliee of Justice Programs agrees with the recommendation. Prior 10 any SeA
      Program solicitation being developed, HJA held a meeting with the evaluators of three
      prior DOl-funded reentry initiatives and NIJ, to identify such lessons learned which were
      incorporatcd into thc initial SCA solicitation.

      In April 2010, BJA, through the NRRC, convened researchers, practitioners, and
      policymakers for a two-day "What Works in ({eentry Expcrt~ Roundtable." The tirst day
      orlhe meeting was devo ted to gleaning ' lessons learned ' from previous reentry initiatives
      (including SVORI , PR1 , the Intensive Aftercare Program, Ready4Work, the Offender
      Reentry Program and Youth Offender Reentry Program, and the Transition from Prison
      and Jail to Community Initiatives). BlA is in the process of working with the Urban
      Institute to finalize a report on the information exchanged during the roundtable
      discussions.

10.   We recommend that O.JP ensure that the target population descriptions in future
      grant solicitation material inelude detailed and precise definitions.

      The Office of Justice Programs agrees with the recommendation. In FY 2010, DlA and
      OJJDP issued ajoinl solicitation for the SCA Programs, which included detailed and
      precise definitions for SCA applicants to use in detennining, developing, and describing
      local target populations in their applications (sec Attachment 2, page J). Within their
      applications, SCA applicants must now identify and define the targel population proposed
      in their projects. In addition, SeA applicants must provide a reaso n lor selecting the
      target population, and provide supporting documentation to justify their decision. The
      Office of Justice Programs requests closure of this recommendation.

11.   We recommend that O,JP consider arranging for an evaluation of Ihe SCA reentry
      programs.

      The Offiee of Justice Programs agrees with the recommendation. In FY 2010, the
      National Institute of Justice (NIl) worked with BJA to develop and release the fullowing
      three evaluation solicitations of the SCA Programs, which may be accessed at
      httQ:l/www.ojp.gov/funding/archived solicitations 10. hIm.

         •   Evaluation orthc Multi-Site Demonstration Field Experiment: What Works in
             Reentry Research
         •   Evaluation ofthc Bureau of Justice Assistance Second Chance Act FY2010 State,
             Tribal, and Local Reentry Courts Program
         •   Evaluation ofthe Bureau of Justice As~istance Second Chance Act Adult
             Demonstration Projects




                                               4




                                           - 62 ­
       Additionally, although there is not an evaluation specifically directed at SeA juvenile
       grantees, these grantees may be asked to participate in one of the Nil evaluations, if they
       meet the criteria under the evaluation solicitation. The Office of Justice Programs
       requests closure of this recommendation.

Thank you for your continued cooperation. If you have any questions regarding thi s rcsponse,
please contact Maureen A. Hcnncberg, Director, Officc of Audit, Assessmcnt, and Management,
on (202) 61 6-3282.

Attachments


ec:    Bcth McGarry
       Deputy A~sistant Attorney General
        for Operati ons and Management

      James H. Bureh, II
      Acting Director
      Bureau of Justice Assistance

      JcfrSlowikowski
      Acting Administrator
      Officc of Juvenile Justice and Delinquency Prevention

      Kristina Rose
      Acting Director
      National Institutc or Justice

      Maureen A. Hennebcrg
      Director
      Office of Audit, Assessment, and Management

      Marcia K. Pau!!
      Chief Financial Officer

      Jeffery A. Haley
      Deputy Directo r, Audit and Revicw Division
      Office of Audit, Assessment, and Management

      Richard A. Theis
      Assistant Director, Audit Liaison Gro up
      Justice Management Division




                                                 5




                                            - 63 ­
                                                                APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP). OJP’s response is incorporated in Appendix IV of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

 1.   Closed. OJP concurred with our recommendation that it ensure that
      reentry grantees implement and adhere to procedures that result in
      timely submission of complete and accurate Federal Financial Reports
      and program progress reports. OJP submitted an agenda for a post-
      award management training workshop for all Bureau of Justice
      Assistance (BJA) and Office of Juvenile Justice and Delinquency
      Prevention (OJJDP) Second Chance Act (SCA) grantees held in May
      2010. In addition, the OJP submitted the website address for a
      webinar provided to fiscal year (FY) 2009 SCA grantees that addressed
      grantee reporting requirements. After reviewing the agenda for the
      workshop and the webinar, we are satisfied that OJP has taken steps
      to make SCA grantees aware of reporting procedures to facilitate the
      timely submission of complete and accurate Federal Financial Reports
      and program progress reports. This recommendation is closed.

 2.   Resolved. OJP concurred with our recommendation that it require
      reentry grantees to monitor grant performance to ensure they achieve
      program goals and objectives. OJP plans on developing internal
      procedures to enhance the compliance rate for the data collected in
      BJA’s Performance Measurement Tool (PMT) and in OJJDP’s Data
      Collection Tool (DCTAT). This recommendation can be closed when we
      receive documentation demonstrating that these internal procedures
      have been developed and implemented.

 3.   Resolved. OJP concurred with our recommendation that it enforce
      the Grant Manager’s Manual (GMM) requirement to perform and
      document annual desk reviews. OJP plans to incorporate the GMM
      requirement to complete and document desk reviews into grant
      managers’ performance work plans by July 2010. This
      recommendation can be closed when we receive documentation



                                    - 64 -
     demonstrating that these requirements have been incorporated into
     grant managers’ performance work plans.

4.   Resolved. OJP concurred with our recommendation that it implement
     the Performance Measurement Tool (PMT) and use it to collect and
     analyze performance measure data collected from the SCA grant
     programs. OJP added SCA grant programs to the PMT in January
     2010. SCA grantees will begin reporting performance measurement
     data in the PMT for data collected for the quarter ending June 30,
     2010. In addition, BJA provided a presentation on the National
     Reentry Resource Center’s website entitled “Overview of Performance
     Measures and Data Collection” for SCA reentry grantees which
     informed SCA grantees that the PMT would be used for performance
     measurement data submission. This recommendation can be closed
     when we receive documentation that PMT is being used to collect and
     analyze performance measures data from the SCA grant programs.

5.   Resolved. OJP concurred with our recommendation that it develop a
     consistent and detailed definition of recidivism and ensure it is
     disseminated to all grantees. OJP included a specific and detailed
     definition of recidivism in the FY 2010 BJA and OJJDP joint SCA
     program solicitation. Specifically, OJP defined recidivism for its adult
     and juvenile SCA reentry grant programs as a return to prison, jail, or
     a juvenile detention or correctional facility, with either a new
     conviction or as the result of a violation of the terms of supervision
     within 12 months of initial release. However, we believe that OJP
     should consider a recidivism definition that includes a time period of
     2 or 3 years, which we believe would provide a better reflection of
     recidivism than does a 1-year period. This recommendation can be
     closed when we receive evidence and the result of OJP’s consideration
     to revise its definition of recidivism to include a 2 or 3 year time period
     for future reentry grants. If OJP, after careful consideration, decides
     not to adjust its current recidivism definition, OJP must provide
     documentation justifying its rationale for this decision.

6.   Resolved. OJP concurred with our recommendation that it require
     grantees in offender reentry programs to provide baseline recidivism
     rates to facilitate an accurate measurement of program impact on
     recidivism. BJA plans on working closely with its SCA grantees to
     ensure baseline recidivism data is collected. OJP anticipates that by
     December 31, 2010, BJA and OJJDP will have developed baseline
     recidivism rates for their respective SCA grantees. This
     recommendation can be closed when we receive documentation that
     baseline recidivism rates have been developed for BJA and OJJDP

                                    - 65 -
     FY 2010 SCA grantees and will be a requirement for future reentry
     grants.

7.   Resolved. OJP concurred with our recommendation that it develop a
     process for analyzing grantees’ performance measurement data to
     determine if program goals are being met, including whether
     recidivism has decreased. OJP plans to work with Consulting Services
     and Research, Inc., and the National Reentry Resource Center to
     develop guidelines for analyzing SCA grantees’ performance data. In
     addition, OJJDP plans on publishing an annual report for its SCA
     grantees that summarizes whether activities and accomplishments are
     consistent with program goals. This recommendation can be closed
     when we receive documentation of the guidelines developed for
     analyzing reentry program performance data to determine if program
     goals are being met, including whether recidivism has decreased.

8.   Resolved. OJP concurred with our recommendation that it add to the
     SCA grant programs the pre- and post-release performance measures
     that were included in the Serious and Violent Offender Reentry
     Initiative (SVORI) and Prisoner Reentry Initiative (PRI) grant
     programs. Although the OJP response refers to performance measures
     improvements in the FY 2010 joint SCA solicitation with BJA and
     OJJDP, those performance measures were unchanged from the
     FY 2009 BJA and OJJDP SCA solicitations and did not relate to pre- and
     post-release services and transition plans. In its response, OJP stated
     that it would explore adding pre- and post-release performance
     measures to its FY 2011 solicitations. This recommendation can be
     closed when we receive documentation of the inclusion of pre- and
     post-release performance measures that were included in the SVORI
     and PRI grant programs to SCA. In particular and as stated in the
     audit report, the missing performance measures relate to the number
     of participants referred to pre- and post-release services, the number
     of participants who received pre- and post-release services, the
     number of offenders for whom a transition plan was developed, the
     number of offenders who completed the program, and the services
     provided by faith- and community-based providers (including the types
     of services provided).

9.   Resolved. OJP concurred with our recommendation that it conduct a
     review of past offender reentry programs to identify best practices,
     lessons learned, and problems to be avoided when developing and
     implementing new reentry programs. Prior to the SCA grant
     programs, BJA held a meeting with the evaluators of the prior DOJ-
     funded reentry initiatives and NIJ to identify lessons learned. In

                                  - 66 -
    addition, in April 2010 a 2-day roundtable was held devoted to
    gleaning lessons learned. This recommendation can be closed when
    we receive documentation showing OJP’s review of past offender
    reentry programs to identify best practices, lessons learned, and
    problems to be avoided when developing and implementing new
    reentry programs.

10. Closed. OJP concurred with our recommendation that it ensure future
    grant solicitation material include detailed and precise definitions of
    target populations. The BJA and OJJDP joint FY 2010 SCA grant
    program solicitation included detailed and precise definitions for SCA
    applicants to use in determining, developing, and describing local
    target populations. SCA applicants must identify and define the target
    population proposed, a reason for selecting the target population, and
    supporting documentation to justify their decision. This
    recommendation is closed.

11. Closed. OJP concurred with our recommendation that it consider
    arranging an evaluation of the SCA reentry programs. BJA worked
    with the National Institute of Justice (NIJ) to develop and release three
    evaluation solicitations of the SCA grant programs, one of which is
    directed at BJA’s SCA adult demonstration programs. This
    recommendation is closed.




                                  - 67 -
